<html>
<title> - EXAMINATION OF THE FORCE REQUIREMENTS DETERMINATION PROCESS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                                     

                          [H.A.S.C. No. 110-9]
 
      EXAMINATION OF THE FORCE REQUIREMENTS DETERMINATION PROCESS

                               __________

                                HEARING

                               BEFORE THE

                    MILITARY PERSONNEL SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            JANUARY 30, 2007

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     
                     U.S. GOVERNMENT PRINTING OFFICE
38-368 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                    MILITARY PERSONNEL SUBCOMMITTEE

                     VIC SNYDER, Arkansas, Chairman
MARTY MEEHAN, Massachusetts          JOHN M. McHUGH, New York
LORETTA SANCHEZ, California          JOHN KLINE, Minnesota
SUSAN A. DAVIS, California           THELMA DRAKE, Virginia
NANCY BOYDA, Kansas                  WALTER B. JONES, North Carolina
PATRICK J. MURPHY, Pennsylvania      JOE WILSON, South Carolina
CAROL SHEA-PORTER, New Hampshire
               Michael Higgins, Professional Staff Member
                 John Chapla, Professional Staff Member
                   Margee Meckstroth, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Tuesday, January 30, 2007, Examination of the Force Requirements 
  Determination Process..........................................     1

Appendix:

Tuesday, January 30, 2007........................................    35
                              ----------                              

                       TUESDAY, JANUARY 30, 2007
      EXAMINATION OF THE FORCE REQUIREMENTS DETERMINATION PROCESS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McHugh, Hon. John M., a Representative from New York, Ranking 
  Member, Military Personnel Subcommittee........................     2
Snyder, Hon. Vic, a Representative from Arkansas, Chairman, 
  Military Personnel Subcommittee................................     1

                               WITNESSES

Formica, Maj. Gen. Richard P., Director of Force Management, 
  Deputy Chief of Staff, G3, Headquarters, U.S. Army; Maj. Gen. 
  Stephen T. Johnson, Deputy Commanding General, Marine Corps 
  Combat Development Command, U.S. Marine Corps; Michael F. 
  Applegate, Director, Manpower Plans and Policy, Manpower and 
  Reserve Affairs, Headquarters, U.S. Marine Corps; Janet A. St. 
  Laurent, Director, Defense Capabilities and Management Team, 
  U.S. Government Accountability Office beginning on.............     3

                                APPENDIX

Prepared Statements:

    Formica, Maj. Gen. Richard P.................................    46
    Johnson, Maj. Gen. Stephen T., joint with Michael F. 
      Applegate..................................................    52
    McHugh, Hon. John M..........................................    42
    Snyder, Hon. Vic.............................................    39
    St. Laurent, Janet A.........................................    65

Documents Submitted for the Record:

    Chart on the Active Component Deployment Lay-Down............    89

Questions and Answers Submitted for the Record:

    Mr. Jones....................................................    97
    Mr. Murphy...................................................    98
    Dr. Snyder...................................................    93
    Mr. Wilson...................................................    97
      EXAMINATION OF THE FORCE REQUIREMENTS DETERMINATION PROCESS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                           Military Personnel Subcommittee,
                         Washington, DC, Tuesday, January 30, 2007.
    The subcommittee met, pursuant to call, at 2:02 p.m., in 
room 2212, Rayburn House Office Building, Hon. Vic Snyder 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. VIC SNYDER, A REPRESENTATIVE FROM 
      ARKANSAS, CHAIRMAN, MILITARY PERSONNEL SUBCOMMITTEE

    Dr. Snyder. Thank you all for being here. We are going to 
go ahead and get started.
    In the spirit of brevity, I have decided that I generally 
look smarter if I read somebody else's words, so I am going to 
read two things about why we are here today.
    One of them was written by Mr. Higgins in this very good 
document that he gave us here in which you talk about what are 
the objectives of the hearing. And he listed three: examine and 
understand the process by which the active Army and active 
Marine Corps determine their force requirements; examine the 
basis for the increase in end-strengths that accompanied the 
President's proposal to increase troop strengths in Iraq; 
understand the perspectives of an outside agency about the 
effectiveness of the force requirements determination processes 
used by the active Army and active Marine Corps.
    And the reason we are doing that--I am going to lift a 
paragraph from our Government Accountability Office (GAO) folks 
today, who, on page 15 of their written statement, say, ``In 
evaluating DOD's proposal to permanently increase active Army 
and Marine Corps personnel levels by 92,000 over the next 5 
years, Congress should carefully weigh the long-term costs and 
benefits.
    ``It is clear that Army and Marine Corps forces are 
experiencing a high pace of operations due to both the war in 
Iraq and broader demands imposed by the global war on terror 
that may provide a basis for DOD to consider permanent 
increases in military personnel levels. However, it is also 
clear that increasing personnel levels will entail significant 
costs that must be weighed against other priorities.''
    I think those two paragraphs summarize pretty much why we 
are here. We can all talk about an increase, as members of this 
committee have for several years, about why we think increases 
are necessary. There are some benefits to that. But there are 
also costs. And the purpose today is to get at how we arrived 
at those numbers.
    And, Mr. McHugh, opening statement or comments?
    [The prepared statement of Dr. Snyder can be found in the 
Appendix on page 39.]

  STATEMENT OF HON. JOHN M. MCHUGH, A REPRESENTATIVE FROM NEW 
     YORK, RANKING MEMBER, MILITARY PERSONNEL SUBCOMMITTEE

    Mr. McHugh. Thank you, Mr. Chairman. I will try to follow 
your lead with brevity. I do have a more verbose----
    Dr. Snyder. We will enter that in the record at your 
request.
    Mr. McHugh [continuing]. Written statement. Thank you. I 
appreciate that.
    And let me, first of all, restate something I tried to 
convey with probably a decided lack of eloquence in our 
organizational meeting, and that is, I wish to congratulate you 
on assumption of the chair.
    I am sorry I don't have a gavel to give you. I notice we 
are absent one. I don't know if we stole it at the time of the 
turnover or not. [Laughter.]
    Dr. Snyder. Oh, here it is.
    Mr. McHugh. Oh, there you go. But use it in good health.
    And, as I said at our previous meeting, I can't think of an 
individual who has been more involved, more concerned, and more 
proactive and productive on these matters than you. And I hope 
to be able to serve you in the role of ranking half as well as 
you served all of us in your previous stint. So I wish you the 
best.
    This is an important hearing. As you noted, Mr. Chairman, 
we have talked, and have acted actually, on this subcommittee 
and the full committee for some time on the question of end-
strength. It cannot be an issue taken in a vacuum. There are 
costs and benefits that have to be analyzed.
    And, as much as the final number, I would like to think 
today we can talk a bit about the process that is used to try 
to determine what the proper distribution of end-strength may 
be.
    And so I commend you for calling this hearing, and I look 
forward to the input of the witnesses.
    I welcome them all, thank them for their service and for 
their presence here today.
    And with that, I would yield back to you and look forward 
to the rest of the day.
    [The prepared statement of Mr. McHugh can be found in the 
Appendix on page 42.]
    Dr. Snyder. Thank you, Mr. McHugh.
    Let us get right to our witnesses.
    Our panel today is Major General Richard Formica, the 
director of Force Management and deputy chief of staff (G3) for 
the United States Army; Major General Stephen Johnson, the 
deputy commanding general of the Marine Corps Combat 
Development Command; Mr. Michael Applegate, the director of the 
Manpower Plans and Policy, Manpower and Reserve Affairs 
Headquarters, U.S. Marine Corps; and then, what was referred to 
as the outside agency, Ms. Janet St. Laurent, director, Defense 
Capabilities and Management Team, United States GAO.
    We appreciate you all for being here.
    Let us start with you, General Formica, with your opening 
statements.

 STATEMENT OF MAJ. GEN. RICHARD P. FORMICA, DIRECTOR OF FORCE 
MANAGEMENT, DEPUTY CHIEF OF STAFF, G3, HEADQUARTERS, U.S. ARMY; 
MAJ. GEN. STEPHEN T. JOHNSON, DEPUTY COMMANDING GENERAL, MARINE 
CORPS COMBAT DEVELOPMENT COMMAND, U.S. MARINE CORPS; MICHAEL F. 
 APPLEGATE, DIRECTOR, MANPOWER PLANS AND POLICY, MANPOWER AND 
RESERVE AFFAIRS, HEADQUARTERS, U.S. MARINE CORPS; JANET A. ST. 
 LAURENT, DIRECTOR, DEFENSE CAPABILITIES AND MANAGEMENT TEAM, 
             U.S. GOVERNMENT ACCOUNTABILITY OFFICE

           STATEMENT OF MAJ. GEN. RICHARD P. FORMICA

    General Formica. Mr. Chairman and distinguished members of 
this subcommittee, good afternoon. As introduced, I am Major 
General Dick Formica, and I am the director of force management 
on the Army staff. As such, I am responsible for managing the 
Army's force structure and for supervising the Army's force-
sizing process to make recommendations to our senior leaders.
    On behalf of the secretary of the Army, Dr. Francis Harvey, 
and the chief of staff of the Army, General Peter Schoomaker, I 
welcome the opportunity to meet with you and to discuss our 
process to determine Army force requirements and to examine the 
basis for the recently proposed increase in the size of the 
Army.
    Before I begin, I would like to express the deep 
appreciation of our Army for your sustained support of our 
soldiers and civilians and their families.
    The chief of staff of the Army has testified that we are in 
a dangerous and uncertain time and that we face challenges that 
exceed the strategy that was envisioned in the Quadrennial 
Defense Review (QDR).
    Recent decisions by the President and the Secretary of 
Defense to propose growth in the armed forces would allow the 
Army to increase our capabilities to maintain the Nation's 
security and to sustain the all-volunteer force.
    The Army's force-sizing process is dictated by strategy as 
promulgated in the national security strategy and through 
various planning documents from the Office of the Secretary of 
Defense (OSD), Joint Staff, and including the QDR.
    Now, our process is also informed by current operational 
demands and lessons learned, to include rotational 
requirements, the employment of high-demand, low-density 
capabilities, and combatant commander requirements identified 
through the global force management process.
    Now, the cornerstone of our force-sizing process is called 
Total Army Analysis (TAA). And for your benefit, to my left and 
your right, at the front is a chart which describes the Total 
Army Analysis that you may be able to refer to.
    It is normally conducted every other year. And we translate 
the required capabilities into force structure across all three 
components, in the active, in the Army National Guard, and in 
the United States Army Reserve, for submission in the Army's 
Program Objective Memorandum or the POM.
    It is conducted in two phases. First, there is a force 
structure requirements determination phase, and second, a force 
structure resourcing phase.
    And the requirements phase, as I said, is determined by the 
strategy, and as a result of that strategy between the OSD and 
the services, we are given a directed number of brigade combat 
teams. And then in TAA, through modeling, we determine the 
total force structure required to support those brigade combat 
teams. The modeling is based on defense planning scenarios and 
considers requirements for smaller-scale contingencies.
    Once those force structure requirements are determined, 
then we conduct the force structure resourcing phase. In this 
phase, we compare the existing force in all three components 
against those requirements that we determined. We match 
capabilities to those requirements.
    And, in that way, we identify capabilities that we may no 
longer project to need in the future, and we identify new 
capabilities that are now required. We then identify 
opportunities to rebalance our structure to eliminate 
capability gaps.
    The result is what we call our programmed or resourced 
force and is the force structure basis, as I said, for the POM 
submission.
    Next we conduct the feasibility review. The force must be 
feasible. That is, it must be within our authorized end-
strength. We must be able to man, equip, train, station and 
sustain that force over the program.
    In QDR 2006, the Army was required to be able to provide 18 
to 19 brigade combat teams (BCT) to meet global demands, and to 
do so, this required 70 brigade combat teams, 42 in the active 
and 28 in the Army National Guard. In TAA, we identified an 
operational force of 790,000--again, across all three 
components, active, guard and reserve--which we determined to 
be sufficient to support the 70 brigade combat teams and to 
meet global commitments.
    This past fall, the Department of Defense (DOD) reassessed 
the global strategic brigade combat team requirements needed 
for the long war and determined that the Army's enduring 
requirement would be upwards of 23 BCTs to meet global 
strategic demand. To meet that enduring requirement, we would 
need 76 brigade combat teams.
    To grow six brigade combat teams, and the requisite 
supporting forces, the Army proposes to grow by 65,000 in the 
active component and 9,000 in the reserve components. This 
growth, combined with our ongoing rebalance initiatives, will 
build strategic depth, reduce stress on the all-volunteer force 
over the long term, and meet our global strategic requirements 
for the long war.
    Again, I thank you for your support. And I look forward to 
taking your questions.
    [The prepared statement of General Formica can be found in 
the Appendix on page 46.]
    Dr. Snyder. Thank you, General Formica.
    General Johnson.

           STATEMENT OF MAJ. GEN. STEPHEN T. JOHNSON

    General Johnson. Thank you, Mr. Chairman.
    Chairman Snyder, Ranking Member McHugh, distinguished 
members of the Subcommittee on Military Personnel, thank you 
for the opportunity to appear before you this afternoon to 
discuss the Marine Corps's force requirements determination 
process.
    We know that the members of this subcommittee deeply 
support our men and women in the military, and we Marines are 
grateful to you for the effective efforts that you have made on 
our behalf. Your support of our warfighters and their families 
is vital to our success and our continued readiness.
    Today is a dynamic period in the history of our country and 
of your Marine Corps. Currently, Marines are heavily engaged in 
the early battles of a long war against terrorism. Moreover, we 
believe that in the future, our Nation's security will be 
subject to a much broader range of emerging threats and 
challenges.
    Given the dynamic nature of today's times and the future 
demands on the Marines, force requirements determination claims 
a significant amount of attention and effort in the Marine 
Corps. Careful and timely planning ensures that our heavily 
committed forces are effectively organized, trained and 
equipped to meet the demands of the current warfight. 
Similarly, accurate force requirements determinations are 
extremely important to the Corps to meet the future force needs 
of the combatant commanders with ready, balanced, capable 
Marine Air-Ground Task Forces (MAGTF).
    The commandant of the Marine Corps determines and manages 
his force requirements primarily through the deputy commandant 
for Combat Development and the deputy commandant for Manpower 
and Reserve Affairs. Today, senior executive Mike Applegate and 
I, representing those two deputy commandants, are prepared to 
review the Marine Corps's force requirements process with you.
    Some of the key aspects of that process I want to hit up 
front.
    First, our force requirements are derived from a top-down 
strategic guidance and also from bottom-up feed from our 
commanders who are eyeball to eyeball with Marines and missions 
in the operating forces.
    Our force requirements are balanced across the Marine Air-
Ground Task Force, ensuring each element--air, ground, 
logistics, and command and control--are considered in every 
force requirement decision.
    Our total force structure process specifies clear 
responsibilities for planning, coordination and integration of 
our force requirements. In other words, everybody has input, 
and things are coordinated across the warfighting functions of 
the Marine Corps for our doctrine, organization, training, 
material, leadership, the facilities, and our personnel.
    Our process includes some modeling and computer analysis, 
but complements that analytical rigor with subject matter 
expert examination of our requirements--a Marine in the loop, 
if you will, to bring combat experience and operational 
judgment into the equation.
    Our process requires us to formally look at the Marine 
Corps biennially, but the system and the process is flexible 
enough to permit us to address force requirements based on 
changing guidance, commander requirements, and changing enemy 
circumstances. In reality, our process is continuous.
    I don't have to tell you that the requirements 
determination process is simply a process. But it is really 
about the people and the tools that we need in order to 
accomplish our missions.
    We are prepared to answer your questions about our people, 
their role in our process, and how we manage and care for them 
to meet the missions before us. We have submitted a statement 
for the record, and I request that it be admitted.
    Mr. Applegate and I look forward to answering your 
questions about this important business.
    Thank you.
    [The joint prepared statement of General Johnson and Mr. 
Applegate can be found in the Appendix on page 52.]
    Dr. Snyder. Thank you. All the written statements will be 
made a part of the record.
    And, Mr. Applegate, it is my understanding you don't have a 
verbal statement at this time?
    Mr. Applegate. That is right, Chairman.
    Dr. Snyder. Ms. St. Laurent.

               STATEMENT OF JANET A. ST. LAURENT

    Ms. St. Laurent. Thank you, Mr. Chairman and members of the 
committee. I am pleased to be here today to discuss GAO's 
observations on (DOD) and service processes for determining 
force structure and military personnel requirements.
    The high pace of military operations in Iraq and elsewhere 
in the world have raised questions about whether the Army and 
Marine Corps are appropriately sized to meet the demands of the 
new security environment.
    My remarks today are based on a wide range of GAO studies 
and will address first the processes used by the Office of the 
Secretary of Defense and the services to assess requirements; 
second, new demands on the services resulting from the new 
security environment; and third, whether the department 
provides adequate information to support and explain military 
personnel requests.
    Now I would like to quickly summarize our observations.
    First, both OSD and the services play key roles in 
determining force structure requirements and managing 
resources. Decisions reached by OSD in the Quadrennial Defense 
Review and in budget and planning guidance often set the 
parameters within which the services can then determine their 
force requirements.
    The Army and Marine Corps have their own processes to 
assess force structure, but these generally follow the 
parameters set by OSD. For example, the 2006 QDR determined 
that the Army would have 42 active combat brigades and about 
482,000 active military personnel. These numbers are a given in 
the Army's force structure biennial review.
    A key purpose of the Army's biennial process is to 
determine the number and types of support forces and 
institutional forces, such as training units, that the Army 
needs to support its combat brigades. If total requirements 
exceed the number of authorized personnel, the Army determines 
which units to resource and where it may need to accept risk.
    Although past Army analyses identified shortfalls ranging 
from about 40,000 to 70,000 positions, the Army's most recent 
review completed in 2006 indicated that the Army's total 
requirements and available military personnel in the active and 
reserve components were about equal.
    The Marine Corps also has a process to periodically assess 
force structure needs that identifies gaps in its capabilities 
to perform new missions, make adjustments in its forces, and 
determine where to accept risk if all requirements cannot be 
fully met.
    We have not yet seen any detailed analyses supporting the 
need to increase the active Army and Marine Corps. However, we 
have discussed the proposed increases with service officials 
and obtained their perspectives on why the Secretary of Defense 
and the service chiefs are now seeking personnel increases, 
when recently completed analyses, such as the QDR, concluded 
that the Army and Marine Corps force structure was ``about 
right.''
    Based on our discussions with service officials and our 
prior work, it appears that there are a couple of key reasons 
why the services' prior analyses did not identify a significant 
mismatch between requirements and available personnel.
    First, as noted earlier, the services' prior analyses were 
completed based on guidance about end-strengths provided by the 
Office of the Secretary of Defense and combat forces, as well. 
They indicated the number of brigades, for example.
    Second, the Army and Marine Corps's earlier analyses did 
not fully consider the extent of real-world demands or the 
forces that the services are currently experiencing as a result 
of operations in Iraq and Afghanistan. Specifically, the Army's 
formal biennial review concluded that the Army would be able to 
provide about 18 to 19 brigades at any one time, including 14 
active and 4 to 5 national guard brigades, while the Army's 
actual global demand is currently about 23 brigades, according 
to the Army.
    Third, the Army's most recent biennial analysis did not yet 
fully consider the impact of converting from a division-based 
force consisting of 33 active brigades organized around 10 
divisions to a new force consisting of 42 active modular 
brigades. This represents a significant transformation, and our 
prior reports have questioned whether the Army would be able to 
fully staff its new modular brigades and achieve planned 
efficiencies in the institutional forces within an active end-
strength of 482,000 personnel.
    Finally, GAO's prior work has shown that DOD has not always 
provided a clear and transparent basis for its military 
personnel requests that demonstrates how they are linked to the 
defense strategy. For example, DOD's annual reports and budget 
justification documents have not provided specific information 
to explain the basis for requested end-strength levels or 
particularly when changes are requested by the Department. 
Also, DOD's 2006 QDR report did not provide significant insight 
into the basis for its conclusion that the size of today's 
force is appropriate to meet current and projected demands.
    Looking forward, we believe it will be increasingly 
important for DOD to demonstrate a clearer link between 
military personnel requests and the military strategy, 
particularly as Congress and the Department need to weigh 
tradeoffs within the defense budget.
    Moreover, with regard to the current proposals to increase 
the Army and Marine Corps, we believe that DOD needs to be able 
to provide answers to a number of key questions, such as why 
the increase is needed to implement the defense strategy; what 
it will cost in the near-term and longer-term to pay for both 
personnel, equipment, training and facilities; and how the 
services plan to manage potential challenges in recruiting new 
personnel and equipping and training units.
    Mr. Chairman, that concludes my remarks. I will be happy to 
respond to any questions.
    [The prepared statement of Ms. St. Laurent can be found in 
the Appendix on page 65.]
    Dr. Snyder. Thank you all for your opening comments.
    Mr. McHugh and I have sat through many hearings by this 
time that the opening statements from the chairman and ranking 
member weren't even done, so we are doing very well here today. 
[Laughter.]
    I want to formally welcome our three new members, not only 
to this subcommittee but to the Congress.
    Ms. Boyda, Mr. Murphy, and Ms. Shea-Porter, we appreciate 
you all being here with your experience and ideas, and look 
forward to working with you as time goes by.
    What I am going to do is ask questions for a few minutes. 
We will then go to Mr. McHugh. After that, we will be on the 
five-minute clock. And I would anticipate that we will go 
around more than one time here this afternoon, depending on the 
staying power of the committee members.
    I want to ask, to put in perspective, both Secretary Gates 
when he was before our committee a couple of weeks ago and then 
the President the other night used the number 92,000, 
specifically talking about a 65,000 increase in the end-
strength for the active component of the Army and a 27,000 
increase in the active component end-strength for the Marine 
Corps.
    But in terms of where are we at today, I think when most 
Americans hear that, they think that means that the number in 
the Army and the Marine Corps today is going to go up by a 
total of 92,000 from where we are at today.
    Isn't it more accurate to say that we are, you know, 
reasonably far along with those numbers already? Where are we 
at today with regard--of those 92,000, how many are already in 
the Marine Corps and the Army on a temporary basis?
    General Formica.
    General Johnson.
    General Formica. Sir, I will respond for the Army.
    The 65,000 of growth that the President and Secretary 
referred to in the active component is measured from the 
programmed force of 482,000 that was referred to earlier, and 
that 65,000, added to the 482,000, would get you to 547,000 
active component end-strength.
    Where we are today is currently sitting at about 504,000. 
As you know, the chief of staff of the Army had requested a 
30,000 increase, and Congress had authorized that. And we have 
been able to grow the Army given that temporary increase, and 
we are currently at about 504,000 today, sir.
    Dr. Snyder. It is my understanding that means of that 
65,000, as of today, the faces in uniform, we have about 23,000 
of that 65,000 in uniform today?
    General Formica. That is correct.
    Dr. Snyder. Correct.
    General Formica. In the Army, in the active component of 
the Army. Yes, sir.
    Dr. Snyder. In the active component.
    General Johnson, my understanding is the number for you is 
about 5,400 Marines in uniform today that are going to be part 
of that 27,000. Is that the number you have?
    Mr. Applegate. Mr. Chairman, I will take that question.
    We ended fiscal year 2006 at about 180,416 end-strength, 
and we expected to end fiscal year 2007 at 181,000, before any 
talk of this end-strength increase. So our historic point is 
from the 180,000 that we ended fiscal year 2006.
    Part of the other issue is that we are only appropriated 
for 175,000, so when we see a total of a 22,000 Marine end-
strength increase from 180,000, that we are currently at, to 
202,000, and then until the money catches up, we need the 
appropriations amount to come from the 175,000 all the way up 
finally to the 202,000, sir.
    Dr. Snyder. But just for the sake of repetition, if nothing 
else. As of today, you have a little over 5,000 of the 27,000 
Marines that Secretary Gates talked about are already in 
uniform under a temporary increase in end-strength?
    Mr. Applegate. Yes, sir.
    Dr. Snyder. Great, great.
    One of the issues that came up--Ms. St. Laurent talked 
about it and, of course, Members of Congress have talked about 
it some. I would like to hear from General Formica and General 
Johnson.
    What occurred that your approach now is different than it 
was for your respective services 12 months ago?
    Ms. St. Laurent gave some reasons why she thinks the 
numbers are different. Because this is a different picture of 
end-strength needs than we heard 12, 18, 24 months ago from 
both the Army and the Marine Corps.
    General Formica, would you start with that?
    General Formica. Yes, sir, I will.
    As was stated, we came out of the Quadrennial Defense 
Review with a recognition that the Army would need to be able 
to provide a rotational supply of 18 to 19 brigade combat teams 
on any given year. And in order to be able to do that, 70 
brigade combat teams, 42 in the active and 28 in the Army 
National Guard, would enable you to do that, with about 14 on 
any given year coming from the active component and 4 to 5 in 
the Army National Guard on a rotational basis. And 482,000 
active component soldiers and the remaining part of the 
operating force in the Army National Guard and the United 
States Army Reserve was determined by the Army to be adequate 
or sufficient to be able to support those 70 brigade combat 
teams, coming out of QDR.
    What changed is, in the fall there was a reassessment 
within DOD, initiated by the Joint Staff, as part of the global 
force management process that recognized an increased enduring 
requirement of upwards of 23 BCTs on a rotational basis for the 
Army. And that increase in BCTs required us to add or to 
propose the growth of six active component BCTs to be able to 
grow and continue rebalancing combat support brigade maneuver 
enhancement in the Army National Guard in order to be able to 
meet the requirements of the 23 BCTs.
    Dr. Snyder. And, General Johnson, if you will briefly 
answer that question, we will move to Mr. McHugh.
    General Johnson. Yes, sir.
    The Marine Corps looked this past fall--or last spring and 
summer, actually, we had a capabilities assessment session in 
which we brought a lot of folks in from across the Marine 
Corps. And we looked at what was going to be required to meet 
the threats of the future. Particularly, looking at our ability 
to balance our MAGTFs not only internally, air-ground logistics 
and command and control, but balance them across the Marine 
Corps.
    We also looked at what the combatant commanders were going 
to be facing with respect to the irregular warfare in the 
future and looked at the guidance contained in the national 
security strategy, defense strategy, and so forth, QDR, and 
looked for ways to recommend to the commandant how we could 
improve the Corps in the future.
    This fall, when the requests were made for us to identify 
what we thought we would need in the future, some of the 
findings that we had recommended to the commandant were 
available to him to draw on. We looked at primarily our role, 
our capability to provide balanced capability to the combatant 
commanders in the future and also the desire to take a look at 
the deployment to dwell ratio that we currently are 
experiencing.
    Those were the two key things that have changed and enabled 
us to go forward and make the recommendation that we did for an 
increase of 27,000.
    Dr. Snyder. Thank you, General Johnson.
    We have had several hearings so far this year already on 
the situation in Iraq and others, and I think hands-down the 
award for most insightful questions goes to my partner, Mr. 
McHugh. [Laughter.]
    So, Mr. McHugh.
    Mr. McHugh. Well, that string will probably end right here, 
Mr. Chairman. [Laughter.]
    But I appreciate the comment.
    I would like to look at the QDR a little bit differently, 
and numbers are obviously important. But when we come down to 
the final analysis, the issue really is how many feet and how 
many boots do we have on the ground out there, particularly for 
you two gentlemen.
    But when the Members of Congress and, I think, the general 
public talk about QDR and defense strategy, they tend to talk 
about missions more than numbers.
    Is my recollection correct that when we talked about the 
2006 QDR the missions objective was to be able to fight an 
Operation Enduring Freedom-Operation Iraqi Freedom (OEF-OIF)-
type engagement with a near-simultaneous regime change? Is that 
correct?
    General Formica. That is correct, sir.
    Mr. McHugh. Looking at the fact that we are now engaged in 
an OEF-OIF engagement, and we are not at the present time 
engaged in a near-simultaneous regime change, how do we justify 
this new plus-up as being adequate to the QDR?
    General Formica. Sir, our assessment in the Army is that 
the requirements that we currently are required to meet and 
anticipate having to meet in the future, based on our lessons 
learned during the OIF and OEF, is that we cannot meet the 
current dwell times with the force that we have now, and the 
projected force that came out of the TAA and the 70 brigade 
combat teams that was projected in QDR to be able to meet the 
mission was inadequate.
    Mr. McHugh. Once you are through the 7,000-a-year projected 
increase to the Army and--I believe the Marine Corps is 5,000?
    General Johnson. Yes, sir.
    Mr. McHugh. Will you be able to meet the 2006 QDR and meet 
dwell times in the United States Army?
    General Formica. Sir, we believe----
    Mr. McHugh. Under current projections.
    General Formica. Under the current projection with 76 
brigade combat teams and growth in combat support brigades 
maneuver enhancements in the Army National Guard, it is our 
projection that we will be able to get dwell times approaching 
a 1:2 in the active component BCTs.
    Mr. McHugh. Approaching?
    General Formica. Yes, sir.
    Mr. McHugh. How far are we approaching it?
    General Formica. I don't have exact numbers.
    Mr. McHugh. Ballpark.
    General Formica. Just short of 1:2. Just short of.
    Mr. McHugh. Okay.
    General Johnson.
    General Johnson. We believe that the increase, if approved, 
over the course of the 5 years would enable us to reach a 1:2 
dwell time. It would give us the capability to have time for 
our forces to be able to adequately rest and also train, to be 
able to focus more on some of the missions that are not--
training that is not being done now as a result of this 
constant flow to the counterinsurgency fight.
    And we believe that the initial--the way we would lay out 
the growth would be so that the units that are most hard-
pressed would be the first in 2007 and 2008 to be the ones that 
we would seek to apply forces to.
    Mr. McHugh. I don't want to put words in the report or the 
mouth of Ms. St. Laurent and the work that GAO did, but I 
believe what I heard her say is that, as you go through your 
process of determining force structure and ultimately end-
strength, the guidance from OSD is highly determinative. That 
is a reality of budget. I understand that.
    As I listened to you respond to the chairman's question 
about what changed, I almost got the impression that the 
combatant commanders all of a sudden realized something they 
didn't realize in 2006.
    In the new estimates were the combatant commanders' 
requests and projections far greater than what was 
determinative of the 7, and then 70, now 76 brigades before 
that?
    General Formica. Sir, I----
    Mr. McHugh. I am trying to understand how determinative OSD 
is, and how much the budget plays here, and how much risk we 
are buying or not buying actually, I guess.
    General Formica. Sir, I would like to start by clarifying 
my last comment----
    Mr. McHugh. Sure.
    General Formica [continuing]. And my previous answer to 
your question.
    With the addition of combat support brigades in the Army 
National Guard, we believe we will reach a 1:2 dwell for 
brigades to meet that requirement.
    Mr. McHugh. After five years.
    General Formica. And I wanted to clarify that answer.
    Mr. McHugh. Okay. Thank you, General.
    General Formica. Sir, there was a reassessment done, as I 
said, in the fall as part of the global force management 
process that identified that the enduring requirement was going 
to be 23 BCTs----
    Mr. McHugh. I don't mean to be rude, but I want to get to 
my colleagues, and I have used far too much time.
    I understand the process. Well, I am not so sure I do. 
[Laughter.]
    But I recognize the structure of the process. But I am 
interested in what the different, if any, calculations were of 
the combatant commanders that produced that change.
    General Formica. Sir, I can't speak to the assumptions of 
the combatant commanders. I can only report that in the global 
force management board there was recognition that the 
requirements on the Army for brigade combat teams was an 
enduring requirement and that assumptions that it was going to 
be reduced changed.
    Mr. McHugh. So I just want to make sure I understood you. 
You have no information as to what the combatant commander 
request was in that process.
    General Formica. Sir, I know what the total requirement was 
for the Army from the combatant commanders, but I did not 
participate in the process with----
    Mr. McHugh. Okay. Thanks.
    General Formica [continuing]. From each combatant 
commander.
    Mr. McHugh. I appreciate it.
    General.
    General Johnson. Well, the QDR results put us at an end-
strength of 175,000. And we believed at the time that it needed 
to be a greater end-strength. And when the opportunity was 
presented this fall to come back with another assessment, I 
believe the assessment was that we could do a better job for 
the combatant commanders.
    Not that their requirements had changed, because I think 
those were fairly well understood. But as some of the 7,500 
plan evolved, as part of the emerging theater security 
cooperation planning evolved, we believed that a larger force, 
more balanced MAGTF could provide them better capability than 
we had indicated previously.
    Mr. McHugh. You Marines had a somewhat different starting 
point on that I recall, so I appreciate that. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Dr. Snyder. Thank you, Mr. McHugh.
    Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman.
    And thank you, gentlemen and lady, for being here.
    General Johnson, it is nice to be with somebody who is a 
graduate of those fine institutions of higher education, 
Amphibious Warfare School and the Army War College, so you are 
starting at sort of a different plane here.
    I am going to get to the Army in just a second, but let me 
start with the Marine Corps.
    When you are making these plans, we are talking about, in 
the case of the Marine Corps, an increase in the end-strength 
of the active Marine Corps. How much in this force generation 
did you count on the participation of the Marine Corps Reserve?
    General Johnson. The end-strength request that we have made 
is focused on the active force, as you know.
    Mr. Kline. Right.
    General Johnson. And we are looking at the reserve now. The 
reserve end-strength is 39,600, and we are looking at it.
    We haven't made recommendations to the commandant yet about 
changing the Marine Corps Reserve. Our goal is to have a 1:5 
deployment dwell ratio with the reserve. And we feel that they 
continue to demonstrate that they reinforce and augment our 
active forces effectively.
    So I don't have an answer for you, Congressman, as far as 
where it will go. We think it is about right, but we are still 
taking a look at it.
    Mr. Kline. All right. It is a very different concept than 
what the Army uses with the Army National Guard and the Army 
Reserve so, if time allows, I may come back. But I want to turn 
to the Army now.
    When you were doing your force modeling and force 
projection and force computations, you purposely and actively 
included the Army National Guard. When you start telling us 
about how many brigade combat teams we have, we will have, we 
won't have in the active reserve, you have already factored in 
to the employment of the United States Army use of the Army 
National Guard.
    General Formica. That is correct, sir.
    Mr. Kline. Is that right? And you reached that, at one 
point it was 14 and 4, I think----
    General Formica. Yes, sir, if I may?
    Mr. Kline. Yes, please.
    General Formica. It is 14 in the active, and that is 1 
deployment and 2 turns back----
    Mr. Kline. Right.
    General Formica [continuing]. At 42 gets you the 14 per 
rotation and the Army National Guard factored at 1 deployment 
and 5 turns back gets you about 4 to 5 at 28.
    Mr. Kline. And 14 and 4, is that the model we are moving to 
or that is----
    General Formica. Sir, that was where we came out of----
    Mr. Kline. All right. So what are we going to now?
    General Formica. It would be 48 in the active component and 
28 in the Army National Guard to get your 76 brigade combat 
teams, plus we will continue the rebalance effort that we have 
in the Army National Guard with the brigade combat teams to the 
combat support brigades designed for maneuver enhancement with 
infantry units assigned. And we will grow those in the Army 
National Guard, as well.
    Mr. Kline. Okay. Thank you.
    Just as a matter of comment and opinion, I still think that 
the United States Army is relying too heavily on the reserve 
component. I think that is a trend that we have seen throughout 
Operation Iraqi Freedom certainly. And it concerns me a little 
bit that we still have what I think is a heavy reliance, 
programmed right in, to deployment of the reserve component.
    I am happy to see that it is at least a one to five, but I 
would argue that really changing the nature of the Army 
National Guard and Reserve component by this factoring in 
automatically national guard brigade combat teams as we go 
forward, as part of the force structure to be actively 
employed--I understand I am using a little mixed language here, 
but you are planning to actively employ members of the national 
guard in your mix.
    And so, back, if I could, to you, General Johnson.
    When you are computing the force structure for the Marine 
Corps, how much are you factoring in the active employment, if 
you will, of the Marine Corps Reserve, like the Army does? When 
you figure out how many MAGTFs we need, how much are you 
relying on the Marine Corps Reserve?
    General Johnson. Well, our reliance on the reserve, as you 
know, is to augment and reinforce, and the structure of the 
reserve mirrors our active structure. And so we have always had 
the capability to reinforce and augment kind of on a mirror-
image basis.
    Mr. Kline. Right.
    General Johnson. But we have learned a lot, of course, out 
of the current fight. And we want to try to minimize some of 
the activations of reservists where we possibly can, where they 
have been unnecessary--or may have proved to have been 
unnecessary.
    But we pretty much try to stay with a mirror image of our 
active forces.
    Mr. Kline. Okay. Thank you.
    I see I am about to run out of time, Mr. Chairman.
    I think, General Johnson, maybe we can meet offline and 
talk about that. I am not sure I am getting--I am probably not 
phrasing the question accurately to understand how much the 
Marine Corps is relying on activation of the reserves.
    So, I am sorry. I yield back.
    Dr. Snyder. No, Mr. Kline. I think it is a good question, 
and we will come back to it in our next round.
    Ms. Sanchez.
    Ms. Sanchez. I do think that is a good question, by the 
way, Mr. Kline. And as somebody who is from California who has 
seen a lot of their reservists and national guard people be in 
the mix, it is an important question to our people.
    Thank you, first of all, for being before us today.
    I have a question. I am sorry because I didn't read all the 
material, and I usually do. But I am at a little disadvantage, 
and I apologize for not having done my homework ahead of time.
    Over what time period will this increase take effect, both 
from the Army and from the Marines standpoint? That is a quick 
question.
    General Formica. Yes, ma'am. We begin the growth 
immediately, as the chairman already indicated, because some of 
those soldiers are already on active duty. And then the growth 
would be programmed out through fiscal year 2012, ma'am.
    Ms. Sanchez. Okay.
    And for the Marines?
    Mr. Applegate. Yes, ma'am. The intent for the Marine Corps 
is to achieve the 202,000 on the active force by the end of 
fiscal year 2011.
    Ms. Sanchez. Okay.
    Mr. Applegate. And we want to do that by trying to hit 
184,000 at the end of fiscal year 2007, and then going up by 
increments of 5 until we top out at 202,000. So in 2008 the 
goal would be 189,000, then 194,000 in 2009, et cetera.
    Ms. Sanchez. Now, I am assuming, as you are increasing--I 
think before, when we had General Clark, retired at the time, 
come before our committee, he mentioned something of a two-to-
one factor. Is that still true for this, so the breakdown we 
would see is a two-to-one breakdown on these? Or, what types of 
troops are you looking at?
    General Formica. Yes, ma'am. In the Army, the growth is 
predominantly in the operational force. It is the brigade 
combat teams and combat support and combat service support 
soldiers that provide necessary enablers, and then there is a 
small amount that will be about 5,000 that will go to the 
generating force or the institutional army to sustain a growing 
force, and the rest of those are accommodated in what we call 
our individuals account.
    We are going to continue to reduce our institutional Army 
and grow our operating force, but about 5,000 of this structure 
will go to the institutional Army.
    Ms. Sanchez. So what you are saying is the marginal troops 
that you are bringing in are going to be at less than the 2:1 
ratio.
    General Formica. The bulk----
    Ms. Sanchez. Two people supporting one person in the field.
    General Formica. Ma'am, the bulk of the forces we are 
bringing in are operational forces, either in the brigade 
combat teams or the combat support and combat service support 
soldiers that are in the field supporting and fighting with 
them.
    Our percentage of the operating force, the institutional 
Army, will stay about the same. It is a roughly about 25 
percent institutional Army and about 75 percent operating 
force. And that will stay about the same as we grow the force.
    Ms. Sanchez. Okay. Thank you.
    And in the Marines?
    General Johnson. The increase that we are looking at, 
ma'am, or the recommended increase that we are looking at was 
75 percent to the operating forces and 25 percent to the 
supporting establishment.
    Ms. Sanchez. If that is the indication--you just gave me a 
ratio, and you said you would bring in more operational troops 
than you would, for whatever intents and purposes, staffing 
troops or what have you, how is the existing soldier going to 
see that? What is the impact that this is going to have on the 
services received to the existing soldier?
    I mean, in other words, will medical care be affected? Will 
waits and whatever be affected, if you are actually bringing in 
more operational troops, but you are leaving, to a large 
extent, the same infrastructure, if you will, of the other 
troops?
    General Formica. Yes, ma'am. And for the Army, again, about 
5,000 of that growth will be applied to that infrastructure, as 
you refer to it, in the institutional Army. That will enable us 
to put more recruiters, trainers, drill sergeants, instructors, 
and medical personnel out in the generating force to provide 
the support that you asked for.
    Ms. Sanchez. So you think, then, an existing soldier will 
see no difference?
    General Formica. I think that we will continue to provide 
the quality supports in the institutional Army, ma'am, yes. And 
we will continue to fund military-civilian conversions in order 
to provide that quality support with both military and civilian 
personnel.
    Ms. Sanchez. What about equipping these troops? I mean, 
today in The Washington Post, ``Equipment for Added Troops is 
Lacking.'' I am sure you saw this article. This is with respect 
to the troops that we are sending out to Iraq.
    What about being able to equip them over this time period 
that you have? Or do you feel strongly that you are going to be 
able to equip them correctly?
    And given the fact that equipment used to follow the 
particular person, and now we changed to equipment is left 
behind, and new troops come in and troops are finding no 
equipment or there is a lack of equipment in places we are, 
like in Iraq, for example--and, oh, by the way, we haven't 
figured out, nor do we know the impact of what we have to 
replace yet.
    How do you all feel about having the right equipment for 
these troops if we can get them in?
    General Formica. Ma'am, of course, first of all, the Army 
is committed to deploying across the berm into Iraq and 
Afghanistan only those units that are manned, trained and 
equipped to the task for which they have been assigned.
    We currently are experiencing, as you know, equipping 
challenges that apply mostly in the units back in the training 
base, in the reset training phase of our force generation 
model. And we are doing a combination of sourcing units with 
their organic equipment, with equipment provided in theater, 
with equipment that is provided to them in the reset, and 
through some cross-balancing from other units in order for them 
to train before they deploy.
    Dr. Snyder. Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And thank you all for being here today.
    My predecessor, the late Congressman Floyd Spence, was a 
strong supporter of greater end-strength, and so I know he 
would be pleased to see the recommendations that are coming 
forth.
    In looking at this, as to recruiting and retention, is 
there anything that we in Congress need to do to assist--and I 
have a particular interest at the recruiting school as at Fort 
Jackson for the Army. Is there anything that we need to do to 
assist in terms of recruiting and retention?
    General Formica. Sir, first, thank you for your comment and 
for your support and for the offer of continued support.
    We believe that with aggressive recruiting goals and 
retention goals that we will be able to achieve the end-
strength that we have envisioned. As you well know, that will 
require continued support from Congress for the incentive 
packages that we would want to offer for both recruiting and 
retention. And we thank you, in advance, for that support.
    Ms. St. Laurent. I would like to also offer a comment on 
the recruiting issue, and that is, in addition to just being 
able to recruit the aggregate numbers, I think both the Army 
and the Marine Corps will potentially have some challenges in 
trying to recruit individuals with the correct skills.
    We have done some reports on recruiting and have found out 
that there are some imbalances, where the services have not 
been able to fill certain occupational specialties and have 
overfilled others.
    So I think a good management plan to manage the increase, 
if approved, would be necessary. And the services will both 
have to look at the kinds of incentives, in terms of recruiting 
and retention bonuses and incentives that they are providing.
    Mr. Applegate. Congressman Wilson, for the----
    Mr. Wilson. Yes.
    Mr. Applegate [continuing]. Marine Corps, we are looking at 
a number of things. One, we are in the process of increasing 
our recruiter force by 600 nationwide. We will need your 
continued support for access to high schools. That is going to 
be an important part of this.
    Our enlistment bonus program is going to need to be funded 
because we are greatly going to need to increase that, along 
with our advertising dollars for our recruiting command, sir.
    Mr. Wilson. And I am always impressed at the recruiting 
because it is so difficult. The number of young people who, due 
to health requirements, it is a small percentage actually of 
those who apply that can finally be fully recruited and 
trained.
    Additionally, how about the facilities? Do we have 
sufficient facilities at Fort Jackson, at Parris Island, 
Pendleton? Do we feel like the facilities for the recruits is 
sufficient?
    General Formica. Again, sir, a great question and one that 
we are--our current military construction (MILCON) program 
which, when passed, will provide increased capabilities, both 
in our operational force but also in our recruiting base. And I 
do believe that we will have adequate barrack space, not only 
at Fort Jackson, but in all of our basic training centers.
    Mr. Wilson. Right.
    Mr. Applegate. And, Congressman, for the Marine Corps, we 
are doing a DOTMILPF process, and I am not sure if you are all 
familiar with that acronym. But that looks at doctrine, 
organization, training, material, leadership, personnel and 
facilities for every aspect of the operating force and the 
supporting establishment for the end-strength increase. And for 
the recruiting command and for our instructors in our training 
command, that is all part of this.
    So we are looking at, do we need more MILCON or facilities 
equipment at the boot camps, throughout the recruiting stations 
and at the recruiting school, and those sorts of things. And 
those are all being wrapped up into our final assessment on 
what the costs are going to be and what the requirements are 
going to be, and the timelines, and where the long poles in the 
tent are for our ability to achieve the end-strength increase.
    Mr. Wilson. And I appreciate Ms. Sanchez bringing up about 
the equipment for the active duty. But there was a report 
yesterday, and I don't know if you have jurisdiction, the 
shortfalls in equipment for national guard units, particularly 
in the event of a state call-up.
    What is the status on adjusting for that?
    General Formica. Sir, I don't have jurisdiction over 
equipment. And I would prefer to take that question for the 
record and have the right folks come back and provide that 
response.
    Mr. Wilson. Fine.
    Ms. St. Laurent. I can provide some comments on that. That 
report----
    Mr. Wilson. Yes, sure.
    Ms. St. Laurent [continuing]. That you are mentioning is 
one that GAO is issuing, will be coming out today publicly.
    But we took a look at how the Department of the Army and 
the National Guard are trying to manage equipment for both 
homeland security and overseas missions, and there are some 
significant challenges. We know the Army is aware of those. But 
because the national guard has been so heavily engaged 
overseas, there are very significant shortfalls in the guard.
    The Army is trying now to identify about 300 or so items 
that will be useful for homeland security purposes, as well as 
overseas missions, and try to manage those. But it is going to 
be a long process before I think the level of equipping in the 
guard units is increased significantly. And, for the time 
being, it is a risk that needs to be considered.
    Mr. Wilson. Thank you.
    Dr. Snyder. Ms. Shea-Porter.
    Ms. Shea-Porter. Thank you very much.
    And thank you for being here today. I have a couple of 
questions.
    I am very concerned about the role of the national guard, 
the way you have projected it. Could you tell me, please, how 
many national guard troops, again, are you expecting to add in 
what timeframe?
    General Formica. Yes, ma'am. In the proposed growth, we 
would grow about 8,200 of Army National Guard, again over the 
same timeframe; about 1,500 a year.
    Ms. Shea-Porter. Okay. I am concerned about some of the 
problems that they are already facing in the civilian sector 
when they leave their jobs for extended periods of time.
    Do you have some program to address that with civilian 
employers? Because I can't imagine it would be very attractive 
to, you know, potential national guard members knowing the 
difficulties right now.
    General Formica. Ma'am, I can't speak to specific programs 
with employers in the communities, but I can tell you that, as 
you know, the Secretary of Defense has recently announced a new 
mobilization policy. The Army embraces that mobilization 
policy.
    And, first of all, we believe it will help in the long run 
to enable us with recurrent assured access to the guard and to 
the reserve. But it also establishes a 12-month mobilization 
period.
    And so, by increasing pre-mobilization training, we can 
optimize the time that they are called on to active duty and 
guarantee them a 12-months mobilization time, as opposed to the 
more extended periods that they have experienced in the past 
few years.
    Ms. Shea-Porter. I would suggest that, in order to meet 
those recruitment goals, that we are really going to have to 
coordinate better, because what I have been hearing out of my 
district is a great deal of stress and strain on the families 
and a reluctance to enroll at this point because of those 
problems that haven't been addressed.
    I also wanted to ask you about stop-loss. I know that has 
recently been changed again, and they are going to try not to 
use the stop-loss. But will that be something that you might 
have to utilize again if you don't reach those goals?
    General Formica. Ma'am, it is my understanding, first of 
all, we will, I believe, continue to rely on stop-loss in the 
near-term, as we provide trained and ready, cohesive units.
    But we did receive guidance from the Secretary of Defense 
to look at how we will reduce and eliminate stop-loss in the 
future, and the Army is assessing its stop-loss program and has 
a responsibility to go back to the Secretary some time next 
month to report how we are going to do that. So we are looking 
at that now, ma'am.
    Ms. Shea-Porter. Okay. And a couple other questions, 
please.
    Reserve Officer Training Corps (ROTC), does it have a role? 
Are you trying to expand that to bring soldiers in?
    General Formica. We will obviously need to have increased 
accessions in ROTC. I can't speak to the specific numbers that 
we will need as part of growing the force, but increased 
accessions in the officer corps, as well as in the enlisted 
ranks, will be required in order to sustain a growth to 547,000 
in the active.
    Ms. Shea-Porter. Okay. And, once again, I am trying to 
project what will happen to these soldiers that come in and 
then eventually leave the military and become veterans. Is 
there any kind of coordination, any long-term plan looking at 
what their needs will be after they retire, in terms of the 
extra costs for the Veterans Administration (VA)?
    You know, maybe there isn't any linkage at all between the 
agencies, but I think it would be helpful because they will be 
utilizing services at the other end. And I think it would help 
people at the beginning, before they entered the military, if 
they knew that there would be a continuation of care after.
    General Formica. Ma'am, I agree. If there is a direct 
linkage that is going on right now today, I am not aware of it. 
But, of course, we do appreciate the continued support of the 
American people and the benefits that our veterans receive. But 
I do agree with you.
    Ms. Shea-Porter. I really would like to see some plan long-
term for that, and I don't even know--I am not putting it on 
your shoulders. I just wanted to bring it up as an issue, that 
I think this is where we fall down, you know, through taking 
care of them at the end.
    And my last question is I am very concerned about the 
training time, and the stories that we are sending soldiers 
into the field unprepared. And I wanted you to address that, if 
you would, please. My understanding is they are not getting 
enough training, in particular national guard and reserve 
units, and they are being put into battle without enough 
training time.
    General Formica. Ma'am, the Army remains absolutely 
committed to sending into Iraq and Afghanistan, into any 
theater of operations, soldiers and units who are manned, 
trained and equipped for the task for which they are going to 
perform. We have got an extensive post-mobilization training 
program run by our U.S. Army Forces Command and First Army, and 
we do extensive post-mobilization training that is geared to 
the mission that the unit has been assigned.
    Ms. Shea-Porter. So you are saying that every national 
guard unit has had proper training, they have had the equipment 
to train with, before they have gone into Iraq and into any 
kind of----
    General Formica. Trained, equipped and certified before 
they deploy.
    Ms. Shea-Porter. Thank you.
    Ms. St. Laurent. I would, if I could, make a comment on 
that issue.
    I would agree that the units going into Iraq are all 
certified and do receive training. But I think there are some 
challenges that we have seen as we have looked at the 
mobilization process, and that includes units not necessarily 
getting the equipment at the time they would like and prefer, 
so they do experience some delays. They eventually get most of 
it at the mobilization station, but sometimes they get 
additional equipment in theater and have to train there.
    So ideally one would want to make some improvements to that 
process.
    Dr. Snyder. Ms. Davis.
    Ms. Shea-Porter. Thank you.
    Mrs. Davis of California. Thank you, Mr. Chairman.
    Thank you all for being here.
    I wanted to direct my questions, if I may, to you, Ms. St. 
Laurent. Am I saying that right? Because I think that some of 
the issues that you raise, I wonder if you could give us a 
little more background about.
    You mentioned the transparency and the hope, I think, that 
the process would be more transparent in the future and that it 
would be based more on reliable data as opposed to individual 
judgments.
    Could you expand on that a little bit and just give us an 
example of, in fact, where that transparency has not been 
obvious to you? And what drives that? How can we do a better 
job with that?
    Ms. St. Laurent. There are a couple of issues from my 
perspective, and I will--again with the analyses that are done 
at the DOD-wide level. One of the principle ones is the 
Quadrennial Defense Review, and we think that the study itself 
has merits. It encourages a review of the defense strategy and 
new initiatives come forward. But it also makes some decisions 
about force structure.
    Our view is that it does not necessarily provide much 
insight into how those conclusions were reached. In fact, in 
the past we have recommended that the Department consider 
providing Congress with a classified addendum or annex that 
would better explain the kinds of assumptions and scenarios 
that were used to reach the conclusions about force structure. 
And we still think that is a good idea. So there is an area 
where they could improve.
    Also, with the military personnel end-strength requests, we 
think that perhaps the Department could create a better display 
to show how they are allocating end-strength to their key 
missions, and how much of it is in combat forces, how much of 
it is in support forces, and how much is it in the 
institutional, or generating, force that includes the training 
base and other things. And then, from year to year, they could 
show how they are changing.
    The Air Force, Army, and Marine Corps are proposing 
increases, but the other services are also proposing to 
decrease.
    Mrs. Davis of California. Can I ask you, on that first 
point, is that a proposal that has been made to the Pentagon, 
to the DOD essentially? And has it gone through a process? Have 
people been able to weigh in on that? Have any of you heard of 
that, and would you have a response to that? How does that 
filter up or down?
    Ms. St. Laurent. Certainly. We generally make these 
suggestions through our reports, by including specific 
recommendations to the Secretary of Defense or to the services, 
where appropriate.
    So, in the case of our recommendation about the QDR, we 
have made a number of recommendations for improving that 
process, to include preparing a classified annex. And DOD has 
agreed, I think, in concept, but has not taken specific action 
to implement it.
    Mrs. Davis of California. So there is not a formal response 
to that.
    Ms. St. Laurent. They have to respond both to the Congress 
and to GAO in a letter responding to our report. And we then do 
follow-up to see whether they are making the changes. But, to 
date, they have not really implemented some of the 
recommendations we have made in the past.
    Mrs. Davis of California. And is that a proposal for this 
last QDR or was that proposal made in the former QDR?
    Ms. St. Laurent. It was a proposal made based on our study 
of the 2001 QDR. We are currently putting together a report 
that will be commenting on the 2006 QDR. And we will have some 
recommendations in that, as well.
    Mrs. Davis of California. Okay. Thank you. I appreciate 
that.
    I am not suggesting necessarily that all those 
recommendations should be taken. But I think part of our 
frustration is that we have been hearing from GAO recently 
that, you know, there are many proposals that are made and, 
generally speaking, they are not necessarily responded to. And 
so we end up making the same--not necessarily the same mistake, 
but we are not really responding to the real-world situations 
as best we could.
    And I wonder, any thoughts about that? Is there enough of 
that that filters to the services? And are you asked to respond 
and to weigh in on those issues at all?
    General Johnson. Well, I can't speak specifically to these 
suggestions, whether we--I don't know if we have been. 
Certainly, if we are asked, we will respond.
    I think that the request by OSD for us to look at our 
strength and come back to them with proposals recently is an 
indication that they do listen to us, and that they have opened 
up that avenue in this case.
    So, in answer to your questions, if GAO asks us for 
something, we will respond. And we think that this is an 
opportunity that we have had to do so.
    Ms. St. Laurent. And I would like to add that we have 
reviewed the Army's Total Army Analysis force structure 
development process several times, in fact, and we have made a 
number of recommendations. And the Army has been responsive on 
many of the recommendations we have made in that area.
    Mrs. Davis of California. Great. Thank you.
    Thank you, Mr. Chairman.
    Dr. Snyder. Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you very much.
    Mr. Applegate, what is the amount of the advertising budget 
for recruitment for the Marine Corps?
    Mr. Applegate. Sir, I believe the 2007 advertising budget 
is in the $120 million range, but I think we will have to get 
back with you on the specifics for that. And I am not sure how 
much more it is going to go up in the 2008 budget, sir.
    Mr. Jones. Major General, how much is the advertising 
budget for the Army?
    General Formica. Sir, I don't know. If you would permit, I 
could ask my colleague to the rear and see if he has brought 
that with him. If not, I will take the question for the record.
    Mr. Jones. Okay.
    General Formica. He reports to me that it is about $280 
million in the base budget.
    Mr. Jones. Okay. How much is the recruitment bonus for the 
Marine Corps and the Army? Is it the same, or is there a 
difference in the recruitment bonus?
    Mr. Applegate. Sir, in 2007, we have a $54 million 
enlistment bonus, and that would be going up substantially in 
2008 and out, sir.
    Mr. Jones. Okay. I guess a couple points.
    Some of my colleagues on both sides--the national guard in 
the state of North Carolina, which I have the privilege to 
serve the 3rd District, it really has been so stressed. I guess 
my question is about the recruitment, not per se about North 
Carolina.
    But I am finding more and more in the guard--and God knows, 
they really have done a great job working with the active duty 
forces, and they need to be all of them applauded, reserve, 
guard, and active duty, for the magnificent job they have done 
in Afghanistan and Iraq--but I am finding more in the guard to 
be concerned.
    And the gentlelady--and I am sorry, I didn't bring my 
glasses. I couldn't see the name. I apologize for that.
    But the point about the fact that it appears that--I know 
that we are trying to increase the end-strength. I know that is 
an ongoing process. But it seems in the short term that I am 
finding more and more guardsmen and reserve, Navy primarily, 
that are really beginning to feel the stress family-wise and 
the stress with their jobs.
    Are you beginning to feel this or to hear this or to sense 
this? That there is a stress that seems to be at a level that 
many in the guard primarily are saying, ``I don't know how much 
more of this I can take''? And it has nothing to do with the 
policy, whether they are for being in Iraq or not being in 
Iraq, but it is just the stress on the family, the individual.
    Are you all having to cope with this more now than ever 
before? I mean, I am hearing it more now.
    General Formica. Sir, if I could make a couple comments.
    First, I share your observation that we are getting 
tremendous service from the soldiers in the active, the Army 
National Guard, and the United States Army Reserve. And it is 
my observation that we are more integrated today than we have 
been during any time in my career. And so we appreciate and 
depend on the sustained participation and integration of the 
United States Army Reserve and the Army National Guard.
    I know that there is increased strain in all three 
components as we meet the demands of the global war on terror. 
And, as you suggest, I am not surprised that you would hear 
anecdotes of that in the Army National Guard in your home 
state.
    But it is encouraging that we met our recruiting and 
retention goals in the components in fiscal year 2006, and we 
anticipate continuing to meet those recruiting and retention 
goals. And so while there is obviously family and individual 
strain associated with deployments, the signs are encouraging 
that the units and the soldiers are able to weather that.
    Mr. Jones. General.
    General Johnson. I can't certainly speak for the guard, but 
I can speak to certainly the Marines. Indicators are that we 
aren't having a lot of stress on the force. Some of the key 
indicators that we would look at: abuse, divorce, things along 
those lines. Those are fairly stable, and our recruiting and 
retention remains stable.
    But we do see some signs of stress on the folks, 
particularly on the families. As the commandant gets around to 
the Marine Corps and speaks with families and Marines, there 
are stressors out there: fathers who have been deployed 
multiple times and so forth. There are stresses that are not 
necessarily visible. But we are concerned about them, and we 
are watching them very closely.
    Mr. Jones. I know recently, Mr. Chairman, I think it was 
our subcommittee, Personnel, we had the wife of a colonel and 
the wife of a gunnery sergeant, and I tell you the truth. And 
then we had a staff sergeant, I believe, in the Army who 
himself who came.
    And I will be real quick because my time is up.
    I truthfully don't think we can do enough for the quality 
of life, whether it be the reserve or active duty. And not get 
into the policy, but I continue--we had a hearing today in the 
full committee, and I think it was General Cordesman. Is that 
the way you say his name? Tony----
    Mr. Murphy. Tony Cordesman, sir----
    Mr. Jones. Thank you. I apologize for that.
    But, I mean, when you hear the fact that we are in a 
situation in Afghanistan that we are going to have to, you 
know, up-tempo, increase the numbers, that we in this country 
and we in this Congress, we have really got to really, I think, 
make the right decisions for that family because it does break 
your heart.
    Yesterday, Brian Bilbray and I went to Walter Reed, which 
every Member of Congress has done. And I never will forget a 
lady that we just happened to see sitting with her--it turned 
out to be her daughter. And for some reason, Brian and I just 
decided we wanted to go up and introduce ourselves and tell her 
how much--we didn't know about her family, but her daughter was 
having her leg amputated yesterday.
    And so my point is, Mr. Chairman, I thank this committee 
for the good that we do. I thank the Congress for what we do. 
But God bless you all. That is all I got to say.
    Dr. Snyder. Thank you.
    Mr. Murphy.
    Mr. Murphy. Thank you, Mr. Chairman.
    And I would like to echo Mr. Jones's comments about what 
you do for our country, and I appreciate it.
    And, Mr. Applegate, I know you are from Toms River, New 
Jersey. I was commissioned in the Army with a guy from Toms 
River, New Jersey. So thanks for your service to the Marine 
Corps, and welcome to the civilian world, like I am, as well.
    Mr. Applegate. Thank you, sir.
    Mr. Murphy. I would just like to state that I don't think 
it is controversial to say that the force requirement 
determination process that we talked about today and the budget 
process is tied together. And I think one of the main themes 
that we should take away from this hearing today is that we 
should be wary of too much political influence over the 
process.
    And that brings me to my point here. That the troubling 
effect of off-budgeting and relying on supplemental 
appropriations, approaches that are overly political, hamper 
our ability to recruit and retain forces, and thus, ultimately 
hurt our ability to hit our end-strength goals.
    So my first question is given what appears to be an in-
depth and deliberative determination about what our force goal 
should be, why are we leaving the bulk of recruitment and 
retention funding to the supplementals budgets that we have?
    General Formica. I would defer to Mr. Applegate.
    Mr. Applegate. I know in the Marine Corps we are trying to 
plow all of the funds into the baseline. I am not sure if that 
is going to be in 2008. It is definitely our goal is to get it 
in by 2009.
    But our intent is to get all the funding requirements into 
the baseline budget as early as possible. Hopefully, that will 
be 2008. If it is not, we are definitely trying to get it in 
for 2009.
    General Formica. And I would just add, sir, for the Army 
that one of the obvious advantages of this recommended 
permanent growth is that we would make permanent first that 
temporary end-strength that has been authorized by the Congress 
and enable us--and we are working this into the budget process 
with OSD--to get as much into the base budget as possible.
    Mr. Murphy. And your plan is to do that in 2008?
    General Formica. I am not sure. They are working that now 
as part of the budget process, and I am sure that that will 
become available once those decisions are made.
    Mr. Murphy. Okay. And I just need to crunch the numbers, 
and the chairman made sure that we did our homework, so. You 
are looking at the numbers. Fiscal year 2006, the Army active 
and reserve spent $4.2 billion in recruiting programs.
    And, you know, I used to do recruiting when I was a 
professor at West Point. Go down along the side for the Judge 
Advocate General (JAG) Corps. Go down at New York colleges and 
universities, and that was a proud moment. I was proud to serve 
in the military. I still am proud of it. It was the greatest 
thing I have ever done.
    But, you know, you look at overview, and, you know, our job 
now is controlling the people's purse here. And you look at, 
you know, at this point, $3.6 billion has been budgeted for 
recruiting in 2007. Clearly, the services are relying on--we 
are looking at $500 million to $700 million coming from this 
emerging supplemental, which is going to come on our plate in a 
couple months.
    And, you know, in fiscal year 2006 the Army spent $1.8 
billion on retention bonuses. But this year, in fiscal year 
2007, we are looking at $1.1 million. So a decreased amount of 
retention bonuses that we have that we are planning on.
    And, you know, I know you all are hurting, and is there a 
plan, you know, with the budget supplementals here, I mean, to 
really hit us with the retention bonuses I would assume? Or 
should we assume?
    General Formica. Mr. Murphy, I can't speak to the specifics 
of the budget requirements. I will be happy to take that 
question for the record and come back to you.
    If I may add, I would like to thank you for your service, 
and I may be so bold as to tell you that we would welcome your 
continued recruiting efforts in your current capacity.
    Mr. Murphy. I will go in any commercial you want me to be 
on. [Laughter.]
    I didn't like the fact that we changed it to an Army of 
one, but that is beside the point. That is not for this 
hearing, but----
    General Formica. Army strong.
    Mr. Murphy. Army strong. That is right. I am glad that we 
changed that.
    Mr. Applegate. Mr. Murphy.
    Mr. Murphy. Yes.
    Mr. Applegate. If I may, for the Marine Corps? I know that 
we are plowing the enlistment bonus, selective re-enlistment 
bonus into the budget, and again, our goal is to get it in 
2008.
    It is not really up to us, because we got the Department of 
the Navy and the Department of Defense who will make the call. 
But we are definitely ready to move all of those funds into the 
baseline.
    Mr. Murphy. And I think, I mean, for the record, I know 
that many members of this subcommittee and Armed Services, 
which I can't speak to, but we have showed our wishes that we 
put this back into the regular budget process just so we can do 
our responsibility of the proper oversight, what you need in 
these programs if we could help you out, as well, so.
    Thank you, Mr. Chairman.
    Dr. Snyder. Thank you, Mr. Murphy.
    Mr. Higgins, start the clock again, and we will head back 
around on a five-minute rule.
    Folks, I want to play devil's advocate a little bit and get 
into this issue of--I want to talk about your chart. Ms. St. 
Laurent's report talks about DOD needs to provide a better 
link--their words, or the GAO's words--a better link between 
its defense strategy and military personnel requirements.
    When I look at your chart, General Formica, on the left 
side.
    General Johnson. Sir, that is our chart.
    Dr. Snyder. That is the Marine Corps chart? Total----
    General Johnson. Yes, sir.
    Dr. Snyder. Oh, there is that little--all right, I have no 
excuse. But we will talk about--see, now, I should just say I 
know, but I want General Formica to explain it. [Laughter.]
    But I am not going to do that. [Laughter.]
    General Formica. Can I take that for the record? 
[Laughter.]
    Dr. Snyder. All right. We will go right below the anchor 
there.
    You know, I have heard people, when we have looked at this 
issue over the last few weeks trying to sort this all out, 
because this issue has tremendous ramifications both for the 
military in achieving your mission, but also on long-range 
costs in our defense budget.
    And so, Ms. St. Laurent, talks about a better link. But I 
have heard this left side of it, what you call the input. And 
you have got strategy document on top of strategy document, and 
then you have op plans, and you have got commanders' requests.
    I mean, the reality is, if I took all those documents and 
put them together, I could find something in there that 
probably justified any level of troop strength for the Marine 
Corps or the Army. I could justify a 300,000 increase in the 
Army. I could justify status quo, I will bet. If you give me 
those documents, I will find stuff in there that can back up 
any level.
    And so I will give Ms. St. Laurent's comment on this. But I 
have heard that described--I describe it as it is like an 
amorphous cloud. And then I had one of the staff members say, 
``Well, no. It is more like Jell-O.'' And using your metaphor, 
Ms. St. Laurent, it is hard to link into either Jell-O or an 
amorphous cloud. [Laughter.]
    And so, you know, we have gone one whole round here. And I 
have read all the written stuff. I still don't have a sense, 
okay. How did we get to 92,000? How did we get to 92,000?
    I think that what Mr. Kline, if I understood what he was 
saying, I think he said it very well.
    Somewhere in all that stuff on the left side, whether it is 
in General Formica's mind or General Johnson's chart, somebody 
made some assumptions that sent to you all that said, hey, you 
are going to rely on the guard for this many of the troops. You 
know, it is going to be this many, at this rotation 
requirement. Then how does that affect what comes out through 
your throughput, through your output, to the other side?
    But we are having trouble--I can't get my hands around, you 
know, how do I go back now, when we are at full committee or to 
my folks back home in Arkansas, and say I sat through this 
hearing, and I now understand the Jell-O? And here is why 
92,000 is the correct number. But I haven't heard anything here 
today that helps me understand why that is the correct number, 
other than you have assured me that you have the Total Army 
Analysis process.
    And I don't doubt your integrity on this. I am playing 
devil's advocate here. But I don't see anything to hook that 
link into. And Ms. St. Laurent, in her comments, I think, in 
her report are acknowledging that Mr. Kline and the others are 
on to something here.
    So would you respond?
    Well, let me go to Ms. St. Laurent first, and then we will 
have our two services respond.
    Ms. St. Laurent. I would like to take a stab at trying to 
explain why I think now we are seeing the Army and Marine Corps 
and the Secretary of Defense supporting a different 
requirement. And that is we have looked at force structure 
planning for probably the past 15, 20 years.
    And the scenarios that the Department uses to do its force 
structure planning have evolved considerably. And before it 
used to be, let us do a detailed analysis of a couple of major 
combat operations, and it would all be focused on offensive 
combat operations. And that was the way it was done for many, 
many years.
    Over the past ten years, the department has expanded the 
kinds of scenarios that get looked at, and that has led us to 
some different requirements. We look at major war requirements, 
but they also look at stability operations and contingency 
requirements. They are starting to look at homeland defense 
requirements.
    And there is a couple of ways of looking at this.
    The Army, based on my discussions with them, does one set 
of analysis that looks at the Army's worst day. What if we had 
to do a number of operations simultaneously, including major 
wars?
    And then, now, though, what has changed, I think, over the 
past couple of years for the Department is that all the 
services are needing to pay more attention to stability 
operations, regular warfare, and having to sustain involvement 
in contingency operations over a number of years. And that has 
required all the services to go back and take a look at their 
rotation force needs.
    What if you have to do something for four, five, six, 
seven, eight years and need to provide a constant flow of 
forces? Now, one can argue about the size of that. And I think 
one of the things we have seen is that the QDR assumptions 
about the size of those contingency operations may not be the 
same, and I don't think they are the same, as the real-world 
demands that the services are currently facing.
    So that is my take on why I think that we are now seeing 
some different requirements being articulated.
    Dr. Snyder. Generals.
    General Formica. Sir, if I may, just to Ms. St. Laurent's 
comments.
    The strategies that you talked about are translated in our 
requirements phase through the scenarios that she refers to. 
And they are OSD-approved scenarios that we then enter into our 
modeling portion, where we do analysis on the type and amount 
of forces that are required to meet those scenarios.
    The scenarios in the particular case of TAA-0813, the most 
recent TAA we did, were not directly related to Iraq and 
Afghanistan. But the scenarios that we have used in the past, 
and have adjusted since, are the scenarios that get us to the 
force that we have today.
    To assure you on the 65,000 and the linkage of the 65,000 
of growth in the active component, again, it was based on the 
need to grow six brigade combat teams in the active component, 
the combat support and combat service support, and enabling 
requirements that are needed to support those brigade combat 
teams, based on our TAA analysis and modeling, that is what--
and then the slight increase, the 5,000, as I said, that we 
would add to the generating force, that is what gets us to 
65,000 in the active.
    Dr. Snyder. General Johnson.
    General Johnson. I can't refute what you said about it 
being a Jell-O-like process. I believe that the evolution of 
the task conditions and standards that we derive from those 
plans and from the scenario analysis, there is a great degree 
of subjectivity to it.
    But we believe that those are the kinds of capabilities 
that we need to build as a corps--we look for the capabilities 
that we need to build as a corps to be able to provide to the 
combatant commanders to meet those kinds of scenarios and to 
meet our requirements in the op plans.
    We have more gaps than we do solutions for those gaps. So 
we are constrained in a number of different ways, not only by 
end-strength, but our dollars, even by technology, in the sense 
that some things that we need don't even exist.
    But the process that we try to go through gets us the 
capabilities that we think the combatant commanders will need.
    Dr. Snyder. Mr. McHugh.
    Mr. McHugh. I need to go to LensCrafters. [Laughter.]
    My eyesight is not quite what it should be here.
    But I assume somewhere in there you are assuming a certain 
amount of risk. We can't buy all eventualities and cover all 
potentials. Is that true?
    General Johnson. That is correct.
    Mr. McHugh. How does this new force structure proposal risk 
compare to the 2006 QDR?
    General Johnson. Well, for the Marine Corps I think that we 
reduce risk by being able to build a more balanced force. We 
are able to build a more balanced MAGTF concept. Right now, we 
have two Marine expeditionary forces that are approximately the 
same size, and one that is a lesser size. And much of this 
increase will allow us to build the forces that will balance us 
across three MAGTFs.
    We also believe that we reduce the risk by being able to--
that gives us a greater ability to provide more forces to the 
combatant commanders to enable their 7,500 planning, to enable 
their TSC--theater security cooperation planning, and also to 
be able to meet the requirements of a major combat operation.
    So we believe we reduce the risks by increasing the force 
over what we were told that we needed to be in the QDR.
    General Formica. And if I could echo General Johnson's 
comments, as we grow brigade combat teams and the combat 
support and combat service support, that would provide a 
greater balance to our force to enable us to provide strategic 
depth and reduced dwell time and to meet the needs of the 
combatant commanders in the future.
    We also, in this growth, are able to reduce risk by 
providing some key enablers and to reduce the amount of high-
demand, low-density types of units that we have in the Army.
    Particularly, we propose growth, for instance, for two 
Patriot battalions, for increased amount of explosive ordnance 
detachment soldiers, improved maintenance for our striker 
systems, small arms maintainers, more military intelligence, 
military personnel (MP) and engineers, and in growing those 
kinds of capabilities, better enable us to provide the kind of 
force we need, not only to meet the current operational demands 
of Iraq and Afghanistan, but for the type of force that we 
think we need for the future.
    Mr. McHugh. Thank you.
    General Johnson, you heard a comment earlier, I believe it 
was in response to Ms. Sanchez's question, about the Army's 
efforts to balance its distribution of the forces amongst the 
various categories of need. The Marine Corps relies, if not 
exclusively, very heavily on Navy personnel for medical.
    General Johnson. Yes, sir.
    Mr. McHugh. The Navy is the service that is kind of going 
the other way in terms of end-strength. They are growing down.
    What calculation, if any, has been made into this request 
for--obviously, you have more Marines potentially engaged in 
more theaters of action, more casualties, more wounded. Is 
there any provision on the Navy side for medical personnel?
    General Johnson. Yes, sir. We have identified our end-
strength growth to the Navy, and the Navy will take a look at 
our requirements for corpsmen and doctors and chaplains and 
will coordinate a commensurate--will support us in that regard.
    Mr. McHugh. But it isn't factored on a numbers basis into 
your request? This is all Marine structure.
    General Johnson. Yes, sir. The end-strength growth request 
that we have made is all Marines, active component Marines.
    Mr. McHugh. Thank you, Mr. Chairman. Maybe we can go to 
somebody else before----
    Dr. Snyder. Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman.
    General Johnson, the requirements for Marine Special 
Operations Command (MARSOC), those are completely included in 
your end-strength increase?
    General Johnson. Yes, sir.
    Mr. Kline. You talked about balancing the Marine 
Expeditionary Forces (MEF). As I recall, one of those MEFs is 
heavily concentrated overseas.
    General Johnson. That is correct.
    Mr. Kline. And are you anticipating an increase of basing 
overseas or a part of that MEF going to be state-side? I don't 
know if we are going to step into classification here, but it 
appears there wasn't a whole lot of room over there to grow 
that MEF in Okinawa and Japan, even with the addition of Guam.
    General Johnson. Yes, sir. You are correct. We have not 
gotten to the point where we are ready to say exactly where all 
these units will be. We believe that you can have a MEF in a 
number of different locations.
    Mr. Kline. Okay.
    General Johnson. So it will be spread out----
    Mr. Kline. Okay. Another time I would like to talk about 
where they might actually go.
    And then, very quickly, I can't restrain myself, try as I 
might, having been in the programming business and the 
requirements business for a long time in the Marine Corps, that 
I just offer the opinion that the requirements system is pretty 
badly broken and lags too much. And this force generation is 
just an example of it.
    It was, if I dare say, intuitively obvious to virtually 
everybody on this committee, not just this subcommittee but the 
Armed Services Committee, that we needed to grow the end-
strength of the active Army and the active Marine Corps. We 
were putting too much stress.
    And now it is 2007, and a good four years after we were 
calling for this end-strength increase, because it seemed 
readily apparent to us that we were overusing the reserve 
component, particularly in the case of the Army Guard and 
Reserve. And now we have got a requirements process on force 
generation that kind of catches up to where we were four or 
five years ago.
    So I am not even going to ask for comment, because we have 
been called to vote, but it really concerns me that this model 
and the Army model are just lagging too badly. It bothers me 
that that has happened to us.
    So with that, Mr. Chairman, I yield back.
    Dr. Snyder. Ms. Sanchez, I think, would like to yield her 
time to Mr. Murphy.
    Ms. Sanchez. That is correct.
    I just want to put in for the record that even though some 
of us thought that we were going to have to grow the end-
strength, I mean, we, you know, we kept being told also that we 
were going to be out of Iraq by now.
    So, you know, I get very worried when we are growing the 
end-strength now because it is an indication to me that we may 
be in Iraq for an even longer time or maybe some other 
situations that we don't really want to be in. So it is a real 
concern.
    Just wanted to put that on the record, and I would like to 
yield my time.
    Dr. Snyder. Mr. Murphy, she has yielded the remainder of 
her time.
    Mr. Murphy. Thank you.
    Dr. Snyder. You have 4 minutes and 30 seconds.
    Mr. Murphy. Roger. Thank you, Chairman.
    I think one of the--during my time on the Armed Services 
Committee and the Select Intelligence Committee is that right 
now the President obviously is asking for the surge, and I am 
very skeptical on his requests with that. But I think it is 
relevant, because when you look at what the surge--I think this 
is the first of many surges. I think the reality of it is the 
majority, 75 percent, of those troops are going to Baghdad.
    Is it necessary for the Army, and particularly the Army, to 
start planning for continued surges beside just Baghdad, in 
Iraq specifically?
    General Formica. I think first will be required a 
determination from the combatant commander on the ground as to 
the length and duration of this surge. The Army, of course, is 
beginning to anticipate what happens on the back end of this 
initial surge; what kind of rotational forces will be required 
when the surge ends, and when those soldiers come back home.
    Mr. Murphy. So it is possible that the Pentagon might come 
back and ask for even more troops than the 92,000, or is that 
within the equation?
    General Formica. Sir, that is not what I said.
    The request for 65,000 in the Army, while clearly related 
to the global war on terror and enable us to engage in that 
global war on terror, is not directly linked to the surge. The 
surge is an immediate requirement in fiscal year 2007. And the 
Army will respond to that surge by providing units that are 
manned, trained and equipped.
    The growth is really about providing capacity for the Army 
and for the Marine Corps to have strategic depth for the long 
term. And, as the chief of staff has testified and as many of 
you have alluded to, this is really the continuation of the 
growth that began a few years ago by taking advantage of the 
30,000 temporary increase that the chief had asked for and that 
was authorized by Congress.
    Mr. Murphy. Even at the last hearing with General 
Schoomaker, he indicated that the continued escalation would 
cause serious doubt about the ability for our military to go to 
the 1:2 deployment ratio.
    What do you think about the current up-tempo of both the 
Army and the Marine Corps? Can you give me a percentage of what 
do you think that would be right now if we continue to----
    General Formica. I think in the near term the Army is going 
to sustain, at least in the active component, an up-tempo of 
about 1:1, and it is our intent, and obviously to grow capacity 
and to get in, as we continue to build our forces, to implement 
our Army force generation model and to take advantage of the 
recurrent assured access to the guard and reserve to improve 
dwell times in all three components.
    Mr. Murphy. And could I just follow up real quick?
    General, you say short term. How short-term? What are we 
talking about there, 12 months?
    General Formica. No. I think we will be at 1:1 in the Army 
at least for another rotation or two, if not longer, for some 
units.
    Mr. Murphy. Those units, particularly active duty units 
or----
    General Formica. Active duty brigade combat teams. When I 
talk 1:1, I am talking active component units and not to the 
guard and reserve.
    General Johnson. We have many units that are 1:1, some that 
are below 1:1, and some are running somewhere less than 1:2. We 
will do whatever is required for the surge, but that will 
exacerbate our existing ratio, and----
    Mr. Murphy. Is there a way that we can get a status on when 
you talk about some are less, some are more? Could we get a 
status of those brigade combat teams? I mean, I can tell you, I 
mean, I was in Second Brigade Combat Team, 82nd Airborne 
Division in Iraq the first time, and they are already going--
you know, since I have left----
    General Formica. Right.
    Mr. Murphy [continuing]. In 2004, they went to Afghanistan. 
They went home. Now they are back in Iraq. So this is the third 
deployment we are talking in less than three years, so.
    General Formica. And that is the 1:1. If you would like us 
to come back with a specific lay down of brigade combat----
    Mr. Murphy. Of the brigade combat teams. Roger.
    General Formica. We can provide that.
    Mr. Murphy. Thank you. Thank you, gentlemen. I appreciate 
that.
    Can I get that for the Marine Corps, sir, as well?
    General Johnson. Yes, sir.
    Mr. Murphy. Thank you, sir. I appreciate that.
    Thank you, Chairman.
    Dr. Snyder. Thank you, Mr. Murphy.
    Folks, we have just about six minutes left or so on votes, 
so we are all going to have to vote and dash.
    I wanted to make a couple final closing comments.
    Mr. McHugh said he had no further questions.
    But first of all, General Johnson, in your written 
statement you refer on page seven and eight to, I think you 
say, ``More and more we are going to need to outthink our 
enemies and find our advantages and victories in the human 
factors. This intimate killing ground where the enemy has 
chosen to fight his wars among the people requires tactical 
cunning and intangible factors to include cultural and language 
skills, plus brilliance in the basics of small unit 
soldiering,'' which I think is a great comment to make.
    And I know at least one member of the full committee has 
great doubts about this 92,000 and thinks that we should be 
really focusing on developing those kinds of skills in a lot of 
the troops we already have. I guess it is the model of what 
somebody referred to as the Lawrence of Arabia model; that it 
is not just a numbers game, but finding those kinds of language 
skills and cultural sensitivity.
    So I appreciate you making that comment.
    I am sorry that we have to go. I would really like to 
pursue the Jell-O cloud more. [Laughter.]
    Because I don't think that we have grappled with that.
    And I am not saying that 92,000 is too high a number. I 
mean, there have been people for years that have been saying--
you know, Norm Sisisky was talking years ago about that this 
was not going to go well for the military. And he has been long 
deceased now, a lovely man, a great member of this committee. 
But he turned out to be right.
    I mean, maybe when we got to the cloud and can sort it all 
out, the number ought to be 180,000. I mean, I don't know. But 
you need to prepare the future witnesses coming before this 
committee and the full committee.
    I think there is going to be members that are going to try 
to sort this out because this has big ramifications for both 
the military but on budget issues. And we don't have either the 
better link that Ms. St. Laurent has called for or an 
understanding of this what you all call input, General Johnson, 
I am calling the Jell-O cloud. Because it is really hard to 
justify right now, based on the information we have, a strong 
defense of those specific numbers you all are citing.
    But thank you all for your time. We are sorry we don't have 
more time to continue this discussion.
    General Johnson. Thank you, Mr. Chairman.
    General Formica. Thank you, Mr. Chairman, Congressmen.
    [Whereupon, at 3:40 p.m., the subcommittee was adjourned.]


      
=======================================================================




                            A P P E N D I X

                            January 30, 2007

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            January 30, 2007

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T8368.001
    
    [GRAPHIC] [TIFF OMITTED] T8368.002
    
    [GRAPHIC] [TIFF OMITTED] T8368.003
    
    [GRAPHIC] [TIFF OMITTED] T8368.004
    
    [GRAPHIC] [TIFF OMITTED] T8368.005
    
    [GRAPHIC] [TIFF OMITTED] T8368.006
    
    [GRAPHIC] [TIFF OMITTED] T8368.007
    
    [GRAPHIC] [TIFF OMITTED] T8368.008
    
    [GRAPHIC] [TIFF OMITTED] T8368.009
    
    [GRAPHIC] [TIFF OMITTED] T8368.010
    
    [GRAPHIC] [TIFF OMITTED] T8368.011
    
    [GRAPHIC] [TIFF OMITTED] T8368.012
    
    [GRAPHIC] [TIFF OMITTED] T8368.013
    
    [GRAPHIC] [TIFF OMITTED] T8368.014
    
    [GRAPHIC] [TIFF OMITTED] T8368.015
    
    [GRAPHIC] [TIFF OMITTED] T8368.016
    
    [GRAPHIC] [TIFF OMITTED] T8368.017
    
    [GRAPHIC] [TIFF OMITTED] T8368.018
    
    [GRAPHIC] [TIFF OMITTED] T8368.019
    
    [GRAPHIC] [TIFF OMITTED] T8368.020
    
    [GRAPHIC] [TIFF OMITTED] T8368.021
    
    [GRAPHIC] [TIFF OMITTED] T8368.022
    
    [GRAPHIC] [TIFF OMITTED] T8368.023
    
    [GRAPHIC] [TIFF OMITTED] T8368.024
    
    [GRAPHIC] [TIFF OMITTED] T8368.025
    
    [GRAPHIC] [TIFF OMITTED] T8368.026
    
    [GRAPHIC] [TIFF OMITTED] T8368.027
    
    [GRAPHIC] [TIFF OMITTED] T8368.028
    
    [GRAPHIC] [TIFF OMITTED] T8368.029
    
    [GRAPHIC] [TIFF OMITTED] T8368.030
    
    [GRAPHIC] [TIFF OMITTED] T8368.031
    
    [GRAPHIC] [TIFF OMITTED] T8368.032
    
    [GRAPHIC] [TIFF OMITTED] T8368.033
    
    [GRAPHIC] [TIFF OMITTED] T8368.034
    
    [GRAPHIC] [TIFF OMITTED] T8368.035
    
    [GRAPHIC] [TIFF OMITTED] T8368.036
    
    [GRAPHIC] [TIFF OMITTED] T8368.037
    
    [GRAPHIC] [TIFF OMITTED] T8368.038
    
    [GRAPHIC] [TIFF OMITTED] T8368.039
    
    [GRAPHIC] [TIFF OMITTED] T8368.040
    
    [GRAPHIC] [TIFF OMITTED] T8368.041
    
    [GRAPHIC] [TIFF OMITTED] T8368.042
    
    [GRAPHIC] [TIFF OMITTED] T8368.043
    
    [GRAPHIC] [TIFF OMITTED] T8368.044
    
    [GRAPHIC] [TIFF OMITTED] T8368.045
    
    [GRAPHIC] [TIFF OMITTED] T8368.046
    
    [GRAPHIC] [TIFF OMITTED] T8368.047
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                            January 30, 2007

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T8368.048
    
?

      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                            January 30, 2007

=======================================================================

      
                   QUESTIONS SUBMITTED BY DR. SNYDER

    Dr. Snyder. How much of the force requirements determination 
process is based on subjective judgments?
    General Formica. Subjective judgments occur at three key decision 
points in the Army's force generation process. Two of those decision 
points occur during the development of requirements; the third 
occurrence is when resource priorities and levels of risk are decided. 
The Army uses quantitative and qualitative analysis and the application 
of sound doctrine and approved force designs in the generation of force 
requirements. These requirements are based upon the Multi-Service Force 
Deployment (MSFD) scenarios approved by the Office of the Secretary of 
Defense (OSD) to support the Analytic Agenda. With guidance from OSD, 
to include The National Security Strategy, National Defense and 
National Military Strategies, Strategic Planning Guidance and the Joint 
Strategic Capabilities Plan, subjective judgments are made to determine 
which MSFD scenarios should be modeled to address the needs of the 
Combatant Commanders and priorities established by the Secretary of 
Defense. Additionally, the Army makes subjective judgments concerning 
the assessments of force requirements to meet Homeland Defense/Homeland 
Security missions and to resolve lessons learned from operational 
requirements that may not be addressed in the analytical modeling 
results. Finally, subjective judgment is applied in identifying the mix 
of capabilities (combat, combat support, and combat service support), 
the balance of those capabilities across the Active and Reserve 
components, as well as levels of acceptable risk within approved 
resources.
    Dr. Snyder. Have there been any initiatives to increase the role of 
data driven analyses in the requirements process and make the process 
more transparent to the Congress?
    General Formica. Quantitative and qualitative data is central to 
the Army's force generation process. A key initiative undertaken by the 
Army is the adaptation of its Total Army Analysis (TAA) process to 
respond to the Global Force Demand and to improve visibility of its 
analytical underpinnings. With input from the Office of the Secretary 
of Defense (OSD) for warfighting analysis, as well as approved 
scenarios from the Analytic Agenda, the Army continues to refine its 
analysis in generating force requirements. In particular, the 
assessment of operational requirements on force rotation demands, as 
well as the needs of Combatant Commanders, generates force capabilities 
to meet the Global Force Demand strategy. The results of these 
assessments are submitted periodically to Congress as part of the 
President's Budget and the Future Year Defense Program. Other 
publications by the Army that outline its force generation requirements 
are annual updates such as The Army Posture Statement and the Army 
Campaign Plan. Additionally, the Government Accountability Office (GAO) 
conducts periodic validation reviews and publishes audit reports that 
assess the analytical basis and results of the Army's force generation 
process. The Army continues to improve on these initiatives to ensure 
timely and accurate information is available to Congress concerning its 
force generation process.
    Dr. Snyder. Has the Office of the Secretary of Defense initiated a 
review to validate the force requirements determination processes used 
in the Army and the Marine Corps?
    General Formica. The Office of the Secretary of Defense (OSD) and 
Joint Staff have conducted Operational Availability (OA) studies, to 
include the work during the Quadrennial Defense Review (QDR) 2006, to 
validate the Services force requirements determination process. Using 
OSD-approved scenarios, current operational demands, and realistic 
deployment timelines, OSD validates the Army's force generation process 
during periodic program and budget review cycles. The results are 
adjudicated and adjustments are made to ensure Army force requirements 
comply with OSD strategy, the needs of the Combatant Commanders, and 
priorities established by the Secretary of Defense.
    Dr. Snyder. Do you believe the services should be required to 
include an assessment of military requirements unconstrained by DoD 
policy and fiscal guidelines?
    General Formica. Requirements generated by the Army only are 
constrained by the National Military Strategy and the Analytic Agenda 
scenarios approved by the Office of the Secretary of Defense (OSD). The 
force generation process, based on Army doctrine and approved force 
designs, is then unconstrained in determining force capabilities needed 
to meet that strategy. Once those requirements are approved, 
constraints are addressed based on fiscal reality and resources 
available to man, equip, train, station and sustain those generated 
forces across all three components. No assessment should be necessary 
in the requirements phase as long as the strategic demands are defined. 
The assessment of risk, as currently provided by the Services in 
program and budget review cycles, addresses shortfalls in resources and 
time to adequately generate force capabilities to meet that strategy.
    Dr. Snyder. Would an unconstrained requirements process yield a 
much different result from the processes currently being used?
    General Formica. The requirements process used today is based on 
strategic guidance and policies set to support the Analytic Agenda. It 
is a disciplined approach to analyzing force requirements given 
approved scenarios and requirements of the Combatant Commanders within 
the priorities of the National Military Strategy, Strategic Planning 
Guidance and the Joint Strategic Capabilities Plan. The Multi-Service 
Force Deployment (MSFD) scenarios approved by the Office of the 
Secretary of Defense (OSD), used as the basis for determining 
requirements, do set force sizing constraints based on threat and the 
concept of operations. Changes in the timing and duration of these 
scenarios in modeling force requirements provide differing results 
while maintaining synchronization across the Services to optimize 
capabilities and to mitigate risk. Unconstrained limits in determining 
requirements could undermine that synchronization and place undue 
pressure on each Service to balance its force capabilities within 
limited resources.
    Dr. Snyder. How would the 2006 QDR been different if the services 
had been free to include an assessment of their unfunded manpower 
requirements?
    General Formica. The results of the 2006 Quadrennial Defense Review 
(QDR) would not have changed substantially given the strategic 
environment known at the time of its publication and the level of 
resources programmed in the Army. The 2006 Quadrennial Defense Review 
(QDR) was based on strategic guidance resulting in the Army's plan to 
resource a 1,037.4k end-strength across all three components (482.4K in 
the Active, 350K in the Army National Guard, and 205K in the U.S. Army 
Reserve). Additionally, the Army was operating under a temporary 30K 
end-strength increase to meet operational demands while transforming to 
a modular force. Given the level of Global Force Demand anticipated in 
the 2006 QDR, the Army had balanced its force capabilities and accepted 
some level of risk in its combat support and combat service support 
structure. As the strategic environment changed after the 2006 QDR 
report, the Army began to address the impacts on force capabilities 
based on the increasing levels of Global Force Demand. The Army 
provided OSD its assessment of force capability shortfalls and proposed 
an end-strength growth across all three components to meet the 
increasing operational demand. The Army will continue to adapt its 
force generation process to provide timely assessments of force 
requirements, available resources, and capability shortfalls as changes 
in the strategic environment evolve.
    Dr. Snyder. Does DoD prescribe the end-strengths that the services 
requirements process must achieve?
    General Formica. The Army's end-strength is set and approved by 
Congress. During the requirements phase of the force generation 
process, the Department of Defense (DoD) does prescribe force levels 
for each Service in the development of the Multi-Service Force 
Deployment (MSFD) scenarios for the Analytic Agenda. These approved 
scenarios are the basis for the Army's quantitative and qualitative 
analysis of force requirements. During the resourcing phase of the 
force generation process, the Army then balances force capabilities 
across all three components within the end-strength approved by 
Congress.
    Dr. Snyder. Can you give examples of other assumptions that DoD 
requires the services to consider in their requirements process and how 
they influence the outcome?
    General Formica. The Office of the Secretary of Defense (OSD) and 
the Joint Staff, with support from the services, utilize an iterative 
process to develop a set of Defense Planning Scenarios (DPS) and Multi 
Service Force Deployment (MSFD) vignettes. These scenarios and 
vignettes make up the OSD Analytic Agenda. Also, DoD and the Joint 
Staff generate Operational Availability (OA) studies to determine 
demand of Service capabilities to meet combinations of the scenarios 
and vignettes over time. Additionally, the Army assesses the capability 
requirements to meet Homeland Defense/Homeland Security missions and 
the rotational requirements to sustain operational demands. The 
Analytic Agenda scenarios and vignettes, along with operational 
demands, are quantitatively transformed into the directed and support 
force structure requirements in the Army's Total Army Analysis process. 
The results are used to identify and balance force capabilities across 
the three components to meet the strategic requirements, provide 
rotational depth, and man, equip, train, station, and sustain the force 
within approved resources.
    Dr. Snyder. Both the Army and the Marine Corps have included 
assessments of unfunded manpower requirements in prior force structure 
requirements processes. Why did you not include those assessments in 
the 2006 QDR?
    General Formica. The 2006 Quadrennial Defense Review (QDR) 
strategic environment was based on a different level of demand than 
what the Army faces today. The Army generated force capabilities based 
on the war fight requirements, Homeland Defense/Homeland Security 
missions, and operational requirements of the then approved Global 
Force Demand. Additionally, the Army was operating under a temporary 
30K increase in end-strength to meet those strategic requirements while 
transforming to a modular force. Based on the 2006 QDR strategy, the 
Army did assume some risk in certain combat support and combat service 
support structure.
    Dr. Snyder. What portion of the additional end-strength increase 
will be used to fill manpower gaps in the existing modular brigades and 
how much of the additional end-strength will be used to create new 
combat capability?
    General Formica. The 74.2K of end-strength growth (65K in the 
Active, 8.2K in the Army National Guard and 1K in the U. S. Army 
Reserve) will build new capabilities, to include six additional brigade 
combat teams and thirteen multi-functional and functional support 
brigades, to meet the increasing Global Force Demand. These new 
brigades will be manned at near 100 percent in the Available and Ready 
Phases of the Army Force Generation (ARFORGEN) model. Additionally, the 
Reserve Components will rebalance and right-size Institutional 
structure and Individuals Accounts to re-invest in combat capabilities 
(6K in the Army National Guard and 16K in the U.S. Army Reserve). With 
the growth, rebalance, and right-sizing initiatives, the Army's combat 
capability in its Operating Force will grow by over 80K (49.4K in the 
Active, 14.2K in the Army National Guard and 17K in the U.S. Army 
Reserve).
    Dr. Snyder. How much of the force requirements determination 
process is based on subjective judgments?
    General Johnson. It is difficult to assign a percentage of 
subjective versus objective judgments to our Total Force Structure 
Process (TFSP). The Marine Corps uses the TFSP to transform strategic 
guidance, policy constraints, and commander-generated recommendations 
into the integrated capabilities required to execute Marine Corps 
missions. This process relies on a partially subjective, yet detailed, 
integrated analysis of doctrine, organization, training, materiel, 
leadership, personnel, and facilities (DOTMLPF), ensuring that no 
aspect of the enterprise is ignored when new requirements for the Corps 
are identified--either from the top-down or from the bottom-up.
    Assessments regarding small unit activations are much more 
subjective than assessments associated with the force requirement 
development necessary to support major theaters of war. The 
determination of how many Marines it takes to support two simultaneous 
Major Contingency Operations contains a great deal of analytical rigor, 
as these requirements are based upon detailed staff work and 
utilization of OSD and Joint staff approved planning scenarios and 
modeling tools.
    Dr. Snyder. Have there been any initiatives to increase the role of 
data driven analyses in the requirements process and make the process 
more transparent to the Congress?
    General Johnson. Yes, the current Defense Planning Scenarios 
development process and planned force sufficiency analyses, based on 
the new Force Planning Construct, will increase the role of data driven 
analyses.
    In addition to this, Our Commandant recently stated that deployment 
cycles must not only support training for irregular warfare, they must 
also provide sufficient time for recovery and maintenance as well as 
training for other contingency missions. Resultantly, we have begun 
work on the following initiatives:

      - Development of a predictive modeling tool that will allow us to 
determine appropriate structure and manning requirements to meet a 1:2 
deployment-to-dwell ratio for sustained combat operations across the 
operating forces.

      - Examination of our requirements for recruiters, trainers, 
infrastructure, material and equipment to both support manning at a 1:2 
deployment-to-dwell ration and training across the spectrum of warfare.

      - Assessment of the impact of a 1:5 deployment-to-dwell ratio for 
the Reserve component and how the Total Force can best be employed to 
support a 1:2 deployment-to-dwell ratio for active forces.

    Dr. Snyder. Has the Office of the Secretary of Defense initiated a 
review to validate the force requirements determination processes used 
in the Army and the Marine Corps?
    General Johnson. Presently, the Marine Corps is not aware of any 
initiatives by the Office of the Secretary of Defense to review or 
validate the Marine Corps' requirements determination processes.
    Dr. Snyder. Do you believe the services should be required to 
include an assessment of military requirements unconstrained by DoD 
policy and fiscal guidelines?
    General Johnson. No. Fiscal and policy constraints allow the 
Services to bound the requirements, facilitate prioritization of 
requirements, and introduce the concept of risk earlier in the process, 
thereby saving valuable resources (time, money and manpower).
    Dr. Snyder. Would an unconstrained requirements process yield a 
much different result from the processes currently being used?
    General Johnson. Yes, in an unconstrained process, the force 
requirement would be much greater/costlier. In a constrained 
requirements process, a certain level of risk is assumed in determining 
requirements.
    Dr. Snyder. How would the 2006 QDR been different if the services 
had been free to include an assessment of their unfunded manpower 
requirements?
    General Johnson. All planning is based upon assumptions; a change 
in an assumption therefore leads to a change in the plan. At the time 
of the 2006 QDR, the Marine Corps considered an end-strength increase; 
however the resulting guidance stabilized USMC end-strength at 175,000 
Active Component and 39,000 Reserve Component by Fiscal Year 2011. The 
2006 QDR initial guidance approved by the Department of Defense's 
senior leadership assumed that while the size of the joint force was 
about right, the mix of capabilities within the force needed to change 
to address current and emerging national security challenges. Given 
different starting assumptions, the results of the 2006 QDR may have 
been quite different. However, without an understanding of these 
assumptions, we cannot adequately predict what those results would have 
been.
    Dr. Snyder. Does DoD prescribe the end-strengths that the services 
requirements process must achieve?
    General Johnson. No. The DoD has, in the past, provided the Marine 
Corps with end-strength constraints such as during the 2006 QDR; and 
these constraints have spurred Total Force Structure exercises such as 
the 2004 Total Force Structure Review Group or the 2006 Capabilities 
Assessment Group. However, the Marine Corps Total Force Structure 
Process cycle produces total requirements regardless of any constraints 
or force caps that result in structure recommendations.
    Dr. Snyder. Can you give examples of other assumptions that DoD 
requires the services to consider in their requirements process and how 
they influence the outcome?
    General Johnson. Force requirements are based on demands determined 
by the DoD. For the 2006 QDR and associated Operational Availability 
2006 study, these demands were provided in the Baseline Security 
Posture (BSP). The BSP specified both the frequency and duration of 
events as well as force caps for each individual event. Based on 
historical levels of commitment for Marine Corps units, the BSP 
projected lower levels of demand for theater security cooperation and 
other non-combat commitments. It also projected future force levels for 
OIF/OEF significantly below current levels. Since the force demands 
determine the projected force requirements, it is possible that the 
constraints imposed by the BSP caused the Marine Corps force 
requirements to be underestimated.
    Another example is the 2006 QDR replacement of the ``1-4-2-1'' 
force planning construct. The ``1-4-2-1'' construct consisted of the 
military defending the U.S. homeland; projecting forces to deter 
conflict in four regions around the globe; swiftly defeating aggression 
in two overlapping major conflicts; and maintaining a capability for 
``decisive victory'' in one of the two major conflicts, possibly to 
include regime change or occupation. The new guidance is a force-
planning construct that puts increased emphasis on defending against 
terrorist threats which requires less force capacity as well as a 
different capability set.
    Dr. Snyder. Both the Army and the Marine Corps have included 
assessments of unfunded manpower requirements in prior force structure 
requirements processes. Why did you not include those assessments in 
the 2006 QDR?
    General Johnson. The QDR is a Secretary of Defense document to 
which the Services each provide manpower requirement inputs. The Office 
of the Secretary of Defense determines the final output and content of 
the Report. At the time of the 2006 QDR, the Marine Corps considered an 
end-strength increase. However, the 2006 QDR initial guidance approved 
by the Department of Defense's senior leadership assumed that while the 
size of the joint force was about right, the mix of capabilities within 
the force needed to change to address current and emerging national 
security challenges, and it included a Marine Corps force cap 
limitation of 175,000 Marines in the Active Component. All QDR analysis 
was subsequently based upon that guidance; therefore, the result was no 
identified unfunded manpower requirements.
    Dr. Snyder. What portion of the additional end-strength increase 
will be used to fill manpower gaps in existing Marine Corps units and 
how much of the additional end-strength will be used to create new 
combat capability?
    General Johnson. The growth in end-strength from 175K to 180K was 
used to fill shortfalls and to establish the Marine Special Operations 
Command (MARSOC). Additionally, we have used military to civilian 
conversion structure and other realignments to help mitigate other 
shortfalls. Some of the increase also went to increase personnel in 
critical MOSs with shortfalls such as Explosive Ordnance Disposal (EOD) 
and intelligence. The 202,000 end-strength will create additional units 
to reduce the deployment to dwell issue and allow for additional 
training of Marine Units in our traditional missions across the warfare 
spectrum of the MAGTF.
    The Marine Corps' 22K increase is divided into 17,000 Marines in 
the operating forces and 5,000 in the supporting establishment. The 
17,000 Marines in the operating forces all provide new unit 
capabilities while the 5,000 allocated to the supporting establishment 
provide additional recruiters (600), instructors (1,200) and transients 
(injured Marines/patients, Marines in training pipeline, Marines 
between duty stations) to support the increase. None of the growth will 
be used to fill manning shortfalls in current Marine Corps units.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. WILSON

    Mr. Wilson. I appreciate Ms. Sanchez bringing up about the 
equipment for the active duty. But there was a report yesterday, and I 
don't know if you have jurisdiction, the shortfalls in equipment for 
national guard units, particularly in the event of a state call-up.
    What is the status on adjusting for that?
    General Formica. The Army National Guard (ARNG) is in the process 
of converting from a Strategic Reserve to an Operational Force. As a 
Strategic Reserve, the Army assumed risk when equipping the ARNG 
because there would be sufficient lead-time to equip the deploying 
force. We can no longer afford to take that risk. We are committed to 
fully equipping the ARNG to 100% of its requirement. In the Fiscal Year 
(FY) 2009-13 Program Objective Memorandum (POM), we are ``fencing $21 
billion as a down payment on fully equipping and modernizing the 
ARNG.'' This effort will require our attention and steadfastness for 
several years after FY 2013 to properly equip and modernize the ARNG to 
be fully interoperable and identical to active component units, having 
the ability to perform any mission in support of full spectrum 
operations.
    In the short term, we are fully committed to ensure the ARNG is 
sufficiently equipped to perform its Homeland Defense/Defense Support 
to Civil Authorities (HLD/DSCA) mission. The ARNG has identified 342 
critical dual use items of equipment that are useful for both war and 
HLD/DSCA. These items were vetted through the states and the Army and 
validated as the HLD/DSCA requirement. We, as an Army, are providing 
equipment to the hurricane prone states, just as we did last year. Some 
new equipment is being diverted to these states; some depot RESET/Recap 
equipment is being redirected; some equipment is being loaned to the 
ARNG; and the ARNG is cross-leveling some equipment among the states. 
We are taking great care to ensure that each state has equipment on 
hand to respond to state missions and are ready to move equipment into 
non-hurricane states, if required. The states have also negotiated 
Emergency Management Assistance Compacts (EMAC) to provide capabilities 
to each other if requested. Although the Army is strapped for 
equipment, in the short term, all components, working in concert, will 
support the ARNG in its mission of aiding/assisting the states in 
responding to natural disasters or other state missions.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. JONES

    Mr. Jones. Mr. Applegate, what is the amount of the advertising 
budget for recruitment for the Marine Corps?
    Mr. Applegate. The FY07 budget includes the following funding for 
recruiting and advertising included $112.23M ($107.4M in the Operations 
and Maintenance, Marine Corps appropriation--OMMC--and $4.8M in the 
Operations and Maintenance, Marine Corps Reserve appropriation--OMMCR).
    The FY08 request includes $146.67M ($141.38M in OMMC, $5.29M in 
OMMCR).
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. MURPHY

    Mr. Murphy. You look at, you know, at this point, $3.6 billion has 
been budgeted for recruiting in 2007. Clearly, the services are relying 
on--we are looking at $500 million to $700 million coming from this 
emerging supplemental, which is going to come on our plate in a couple 
months.
    And, you know, in fiscal year 2006 the Army spent $1.8 billion on 
retention bonuses. But this year, in fiscal year 2007, we are looking 
at $1.1 million. So a decreased amount of retention bonuses that we 
have that we are planning on.
    And, you know, I know you all are hurting, and is there a plan, you 
know, with the budget supplementals here, I mean, to really hit us with 
the retention bonuses I would assume? Or should we assume?
    General Formica. Retention bonuses went from 1.2B in FY06 to $1B in 
FY07 including the Supplemental. Below are the details based on the 
PB08, in thousands of dollars.



                                                             FY06         FY07          FY07 Supp (not PB08)

From PB08
AC SRB:                                                      736,943      181,537                       410,516
AC CSRB:                                                           0            0                        24,850
AC Officer:                                                        0            0                        62,000
ARNG 3yr                                                      40,484       14,282                             0
ARNG 6yr                                                     267,470       92,125                       153,780
USAR AGR                                                      10,240        5,000                         7,440
USAR REUP                                                    129,816       37,951                        49,421
USAR AGR CSRB                                                      0        2,405                         2,410
USAR UNIT REUP                                                44,084          425                        30,770

Total                                                      1,229,037      333,725                       741,187

                                                                                          FY07 Total: 1,074,912



    Above data exclude retention bonuses for medical officers, which 
approximate $180 million per year.
    Mr. Murphy. Is there a way that we can get a status on when you 
talk about some are less, some are more? Could we get a status of those 
brigade combat teams?
    General Formica. The attached chart at Tab A depicts the Active 
Component Brigade Combat Teams that have been deployed or are available 
for scheduled deployments through Fiscal Year 2007. Sourcing has not 
been approved by the Secretary of Defense for Fiscal Year 2008 and 
beyond, and is not included. Of the Brigade Combat Teams listed on the 
attached chart, 15 have deployed once. Many of these brigades are new 
builds, or are fulfilling other mission requirements such as Training 
and Transition Teams. Three have never deployed: 1st Brigade, 2nd 
Infantry Division is Forward Stationed in Korea; 4th Brigade, 10th 
Mountain Division has not deployed as a Brigade Combat Team, but has 
deployed battalions; and the 2nd Brigade, 25th Infantry Division is a 
new build. Of the Brigade Combat Teams listed on the chart, seven have 
deployed with less than 12 months at home between deployments. Twenty 
seven have deployed with less than 24 months, but more than 12 months 
between deployments (average of 17.7 months). Two had greater than 24 
months between deployments, however they deployed Battalion sized 
organizations in the interim. Twenty Brigade Combat Teams are currently 
deployed.

    [The information referred to can be found in the Appendix on page 
89.]

    Mr. Murphy. Is there a way that we can get a status on when you 
talk about some are less, some are more? Could we get a status of those 
brigade combat teams?
    General Johnson. [The information referred to is classified and 
retained in the committee files.]

                                  <all>

</pre></body></html>
